<html>
<title> - NATIONAL PARKS IN THE PACIFIC NORTHWEST</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]




 
                NATIONAL PARKS IN THE PACIFIC NORTHWEST

=======================================================================

                                HEARING

                               before the

                   SUBCOMMITTEE ON CRIMINAL JUSTICE,
                    DRUG POLICY, AND HUMAN RESOURCES

                                 of the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                               __________

                           SEPTEMBER 12, 2005

                               __________

                           Serial No. 109-137

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html
                      http://www.house.gov/reform

                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
27-380                      WASHINGTON : 2006
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                     COMMITTEE ON GOVERNMENT REFORM

                     TOM DAVIS, Virginia, Chairman
CHRISTOPHER SHAYS, Connecticut       HENRY A. WAXMAN, California
DAN BURTON, Indiana                  TOM LANTOS, California
ILEANA ROS-LEHTINEN, Florida         MAJOR R. OWENS, New York
JOHN M. McHUGH, New York             EDOLPHUS TOWNS, New York
JOHN L. MICA, Florida                PAUL E. KANJORSKI, Pennsylvania
GIL GUTKNECHT, Minnesota             CAROLYN B. MALONEY, New York
MARK E. SOUDER, Indiana              ELIJAH E. CUMMINGS, Maryland
STEVEN C. LaTOURETTE, Ohio           DENNIS J. KUCINICH, Ohio
TODD RUSSELL PLATTS, Pennsylvania    DANNY K. DAVIS, Illinois
CHRIS CANNON, Utah                   WM. LACY CLAY, Missouri
JOHN J. DUNCAN, Jr., Tennessee       DIANE E. WATSON, California
CANDICE S. MILLER, Michigan          STEPHEN F. LYNCH, Massachusetts
MICHAEL R. TURNER, Ohio              CHRIS VAN HOLLEN, Maryland
DARRELL E. ISSA, California          LINDA T. SANCHEZ, California
GINNY BROWN-WAITE, Florida           C.A. DUTCH RUPPERSBERGER, Maryland
JON C. PORTER, Nevada                BRIAN HIGGINS, New York
KENNY MARCHANT, Texas                ELEANOR HOLMES NORTON, District of 
LYNN A. WESTMORELAND, Georgia            Columbia
PATRICK T. McHENRY, North Carolina               ------
CHARLES W. DENT, Pennsylvania        BERNARD SANDERS, Vermont 
VIRGINIA FOXX, North Carolina            (Independent)
------ ------

                    Melissa Wojciak, Staff Director
       David Marin, Deputy Staff Director/Communications Director
               Rob Borden, Parliamentarian/Senior Counsel
                       Teresa Austin, Chief Clerk
          Phil Barnett, Minority Chief of Staff/Chief Counsel

   Subcommittee on Criminal Justice, Drug Policy, and Human Resources

                   MARK E. SOUDER, Indiana, Chairman
PATRICK T. McHenry, North Carolina   ELIJAH E. CUMMINGS, Maryland
DAN BURTON, Indiana                  BERNARD SANDERS, Vermont
JOHN L. MICA, Florida                DANNY K. DAVIS, Illinois
GIL GUTKNECHT, Minnesota             DIANE E. WATSON, California
STEVEN C. LaTOURETTE, Ohio           LINDA T. SANCHEZ, California
CHRIS CANNON, Utah                   C.A. DUTCH RUPPERSBERGER, Maryland
CANDICE S. MILLER, Michigan          MAJOR R. OWENS, New York
GINNY BROWN-WAITE, Florida           ELEANOR HOLMES NORTON, District of 
VIRGINIA FOXX, North Carolina            Columbia

                               Ex Officio

TOM DAVIS, Virginia                  HENRY A. WAXMAN, California
            J. Marc Wheat, Staff Director and Chief Counsel
               Mark Pfundstein, Professional Staff Member
                           Malia Holst, Clerk


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on September 12, 2005...............................     1
Statement of:
    Malmberg, J. Paul, regional director, Washington State Parks, 
      Southwest Region; Sally Jewell, trustee, National Parks 
      Conservation Association; Rex Derr, director, Washington 
      State Parks and Recreation Commission; Tim Wood, director, 
      Oregon State Parks; Russ Dickenson, former director, 
      National Park Service; and Rod Fleck, city attorney/
      planner, Forks, WA.........................................    39
        Dickenson, Russ..........................................    62
        Fleck, Rod...............................................    66
        Jewell, Sally............................................    45
        Malmberg, J. Paul........................................    39
    Muldoon, Cicely, deputy regional director for public use, 
      Pacific West Region, National Park Service, accompanied by 
      Dave Uberuaga, superintendent, Mount Rainier National Park; 
      Bill Laitner, superintendent, Olympic National Park; and 
      William Paleck, superintendent, North Cascades National 
      Park.......................................................    11
Letters, statements, etc., submitted for the record by:
    Dickenson, Russ, former director, National Park Service, 
      prepared statement of......................................    64
    Fleck, Rod, city attorney/planner, Forks, WA, prepared 
      statement of...............................................    70
    Jewell, Sally, trustee, National Parks Conservation 
      Association, prepared statement of.........................    51
    Malmberg, J. Paul, regional director, Washington State Parks, 
      Southwest Region, prepared statement of....................    42
    Muldoon, Cicely, deputy regional director for public use, 
      Pacific West Region, National Park Service, prepared 
      statement of...............................................    14
    Souder, Hon. Mark E., a Representative in Congress from the 
      State of Indiana, prepared statement of....................     5


                NATIONAL PARKS IN THE PACIFIC NORTHWEST

                              ----------                              


                       MONDAY, SEPTEMBER 12, 2005

                  House of Representatives,
Subcommittee on Criminal Justice, Drug Policy, and 
                                   Human Resources,
                            Committee on Government Reform,
                                                      Bellevue, WA.
    The subcommittee met, pursuant to notice, at 10:12 a.m., at 
the Lewis Creek Visitor Center, 5808 Lakemont Boulevard, 
Bellevue, WA, Hon. Mark E. Souder (chairman of the 
subcommittee) presiding.
    Present: Representative Souder.
    Also present: Representatives Reichert, Inslee, and Baird.
    Staff present: Marc Wheat, staff director and chief 
counsel; and Mark Pfundstein, professional staff member.
    Mr. Souder. Let the meeting come to order. Before I read my 
opening statement, let me briefly describe for those who aren't 
familiar with our Government Reform Committee what we're doing 
here. Congress is basically structured with authorizing 
committees. For the National Parks, it would be the Resources 
Committee and National Parks Subcommittee to develop 
legislation.
    Any legislation that is based on the Centennial Act or 
anything else would have to move through the Parks Subcommittee 
and the Natural Resources Committee. Then the appropriation 
process decides how to fund that. In the process, the 
appropriators who often, I think, are in charge of everything 
will also do policies with it, but they have to get a waiver 
from the Resources Committee.
    The Government Reform Committee basically looks at whether 
the policies are being implemented the way Congress intended 
and the way the money has been spent is the way Congress has 
intended and is the oversight for all legislation and policy. 
In the Government Reform Committee, we have kind of like, for 
lack of a better word, three major subcommittees and then a 
number of more targeted subcommittees.
    The subcommittee I chair on Criminal Justice, Drug Policy, 
and Human Resources has become the primary narcotics committee 
in the U.S. Congress because not only do we do oversight, but 
we also have authorization on the drug side, and recently the 
speaker has assigned other drug policies to our committee, 
although it's not clear whether it should go to the judiciary 
or to Congress.
    So we spend about half our time on narcotics issues, but we 
also have very broad jurisdiction in my subcommittee to be able 
to hold hearings on different topics.
    So we have jurisdiction over the Department of Education, 
the Department of Health and Human Services, the Department of 
Justice, the Department of HUD, as well as all faith-based 
operations, NPR and so on, and because I swapped Department of 
Commerce to another committee chairman in our arrangements with 
National Parks.
    Now, what we do in addition to the regular oversight we do 
in our subcommittee, we try and focus on one area where I do a 
series of hearings over 2 years and then issue a report.
    About 4 years ago, we spent 2 years on the borders and used 
that border report then as the foundational document that we 
used in our creation of the Homeland Security Committee, which 
I'm on on the borders, and the chairman had every Member read 
that border report.
    The last 2 years we focused in the last Congress on faith-
based and did a series of hearings around the country looking 
at how that was being implemented and what the original intents 
were versus some of the policy being done.
    In this 2-year cycle, we're looking at our National Parks. 
We have had a series of these hearings now in Washington, DC, 
as well as at Gettysburg and in Boston. We are going to the 
Grand Canyon next month. And we are doing a series of these 
field hearings.
    Whenever we do these oversight hearings, the authorizing 
committee and the Appropriations Committee and the 
administration are never happy. And it doesn't matter whether 
it's Republican or Democrat, but we were in existence actually 
before the authorizing committees, and so every time 
jurisdiction is challenged, we win, as was the case in this, 
and we have been going ahead. But it's been a little bit of a 
slow start because a lot of people didn't want us to have our 
hearings.
    But as you can see now with this being our fourth hearing, 
the hearings are going ahead full steam, and we'll be doing 
about one a month for the foreseeable future. So I thank you 
all for participating in this because I can guarantee you that 
certainly since I've been in Congress and when I was in the 
staff there hasn't been this systematic looking at the National 
Parks around the country in an oversight perspective in a long 
time, because in the day-to-day business of Congress you are 
busy dealing with the legislation and trying to find the 
funding. And we wanted to have a sweeping look across the 
country in each region of the country, so I thank you for your 
willingness.
    This committee when Republicans took over was primarily 
noted for all the investigations of the last administration. It 
started with the travel office and running through to the end.
    This time we're probably best known because we like to talk 
about the past because Mark McGwire and the baseball people are 
up in front of us on steroids, and that was probably the most 
notable moment in this particular Congress, but that's what the 
focus of this is. It's oversight to look at the financial 
policy, long-term goals, particularly pointing toward the 100th 
birthday of the National Parks System.
    So I thank you for coming. As I mentioned, this is the 
fourth in a series of critical hearings. I would also like to 
welcome my fellow Members of Congress who deeply care about the 
National Parks and who have joined me here today.
    As I have said at many of the hearings, our American 
National Park System is really one of our primary contributions 
to the world as a concept. Many countries have National Parks 
and have preserved their historic areas. No other country, 
however, has developed the same kind of park system with such a 
diversity and breadth and distinctiveness as our system.
    Moreover, each park is unique unto itself. The majesty of 
Mt. Rainier is different than the breathtaking volcanoes of 
Hawaii, which are different from the historically and 
emotionally significant sites of the Statue of Liberty and 
Ellis Island. Although each site is an exceptional example of 
history and natural beauty, all park service units share one 
unfortunate commonality: funding pressure.
    As operations and maintenance, for example, demand more and 
more of the Park Service budget, the quality of the Park 
Service is sure to deteriorate. In many areas, we have already 
seen a decrease in hours of operation, decline of services and 
the deterioration of facilities. The pressure on the Park 
Service affects its ability to conserve and protect the 
environment, provide recreational opportunities and educate the 
public.
    The parks of the Pacific Northwest contain some of the most 
magnificent vistas, prime hiking and mountain climbing 
opportunities and ecologically diverse zones in the Park 
Service. If these parks are to remain, we must examine the 
parks of this region, discuss their situations and work to 
provide solutions so that future generations can enjoy what we 
have today.
    I am pleased to be joined today by several Members of 
Congress, all of whom have a deep and abiding love of the parks 
and the Park Service.
    First, Congressman Brian Baird joins us today. He and I co-
chair the National Parks Caucus in the House. He also was 
instrumental in the creation of the Lewis and Clark National 
Historic Park.
    I would also like to welcome Congressmen Jay Inslee, Dave 
Reichert, and I know Rick Larsen will be here later because he 
told me he was coming.
    These gentlemen have demonstrated their commitment to the 
National Parks not only by their presence here today, but also 
through their efforts in Congress to make a better Park 
Service.
    I would also like to welcome our witnesses. Our first panel 
consists of Cicely Muldoon, Deputy Regional Director for Public 
Use, Pacific West Region. Director Muldoon will be testifying 
on behalf of the Park Service. She will be joined during the 
question period by Dave Uberuaga, Superintendent, Mount Rainier 
National Park; Bill Laitner, Superintendent, Olympic National 
Park; and William Paleck, Superintendent, North Cascades 
National Park.
    Our second panel will be Sally Jewell, trustee of the 
National Parks Conservation Association; Russ Dickenson, the 
former director of National Park Service from 1980-1985; Ron 
Fleck, city attorney/planner of Forks, WA; Rex Derr, director 
of the Washington State Parks; and Tim Wood, director of the 
Oregon State Parks. We welcome you all.
    I would now like to yield to Congressman Inslee for an 
opening statement.
    [The prepared statement of Hon. Mark E. Souder follows:]
    [GRAPHIC] [TIFF OMITTED] T7380.001
    
    Mr. Inslee. Well, thank you. I really appreciate Chairman 
Souder coming here, and I'm sorry you didn't make it to any 
Washington National Parks this summer; hopefully next summer. 
We'll work on you in that regard.
    It goes without saying we're talking about the crown jewels 
of America here today, and I know everybody in this room cares 
deeply about it.
    Just as a personal note, one of the reasons I care so 
deeply is my family goes back to the National Parks with my mom 
and dad who worked with the SCA doing re-vegetation work up in 
the damaged alpine meadows up in Mt. Rainier National Park in 
the late 60's and early 70's. And we saw what can happen to our 
parks as far as degradation when we don't care for them and the 
great work that we can do if we can get the resources to get it 
done. And right now those resources are greatly in jeopardy.
    And just as a matter of a personal note, I will put in the 
record, Mr. Chair, if I can, a little picture of Sahalie Peek 
and Hidden Lake that I took a couple of weeks ago on a great 
hike.
    But I just want to note, and I will hand this around, this 
shows to the right of this a place, Cascade Pass, and it's an 
incredible spot. And it was actually trampled about 20 years 
ago by all of us who loved it to death. And the people at North 
Cascades National Park with their own resources and some 
volunteers did an incredible job managing that resource so that 
now when you go up there, you see alpine meadows, and you can 
walk in sort of a defined area on occasion. And it was just an 
indication to me of the great work that people have been doing 
when they get the resources. And my complements to all the 
folks who worked on that project.
    But I want to note it's not just budgetary pressures we 
have to talk about, and I will make a mention about that in a 
minute, but there are two real threats to the National Parks 
that are in a larger environment that go beyond just our 
National Park policy.
    One of those is the changes in the climate that affects the 
entire ecosystem in our national parks. If you go up--in fact, 
if you look at this picture here, there's a picture of Sahale 
Glacier. Sahale Glacier is 1 of 117 glaciers in the North 
Cascades National Park that are shrinking. All the glaciers are 
shrinking. Four of them have actually disappeared. We have four 
glaciers that were there when I was born and have disappeared. 
Glacier National Park will not have glaciers in Glacier 
National Park in 75 years if trends continue.
    We have a massive change in our climatic system that has 
created change in not only the glaciers, but the biospheres in 
our National Parks. And I know that because I think it's 
important every chance we get to talk about this threat to the 
world that we grew up in in America.
    I was in Denali Park a few years when they talked about the 
moving tree line which is moving up which has the threat that 
eventually some of those alpine meadows that I grew up with may 
not be there in 100, 200 years if the tree line continues to 
move up.
    Congress has been willfully and totally AWOL dealing with 
this issue. And no matter what we do voluntarily, unless we 
deal with global warming, our National Parks are going to be 
significantly diminished from the alpine meadow jewels that we 
enjoy in Washington in the Olympics, Mt. Rainier and North 
Cascades Park.
    The second threat that's sort of epidemic, and that is that 
we are told there is a grassroots circulation in the bowels of 
the Department of Interior that in a major way would diminish 
our commitment to the long-term commitment to keep our parks in 
a pristine and natural condition.
    We're told that a draft is circulating that would 
essentially redefine what the word impairment is, which would 
say you can go ahead and impair our parks if it's just on a 
temporary basis. That just doesn't cut it. Jet skis, as my 
friend Brian Baird suggested, don't belong in Crater Lake 
National Parks, although, it would be intriguing to see them go 
around the little island there.
    This is a major threat to the very fundamental mission of 
the National Park system, and we need for that memo to never 
see the light of the day, that it is stopped before it hits the 
public because I can say unequivocally that the consensus view 
of the people I represent want to see National Parks for 
several generations down the road, not just for the next 2 
years' potential profitmaking enterprises in our National 
Parks.
    You know, we used to have a golf course at Paradise 
National Park, but it really wasn't the right thing at the 
right place, and we want to strangle that bad idea.
    The third issue, and I will just make one comment, and I'm 
looking forward to hearing from the panels about this, we do 
not want to get ultimately into financing National Parks with a 
bake sale situation. And there is a bill that is one potential 
approach to this situation. But we have to have a finer way to 
pay for the National Parks. If we do not have one of the tax 
cuts go through for people who earn over $500,000 a year, if we 
just reduce that by one fifth so the people who earn over half 
million dollars a year have one fifth less of the tax cuts than 
they have, you would totally wipe out the backlog of the 
National Park. And we need to find a bipartisan way to pay for 
this, and I hope we can do that.
    Thank you very much, Mr. Chair.
    Mr. Souder. Thank you.
    We're here in the home area of Congressman Reichert.
    Mr. Reichert. Well, welcome everyone and thank you for 
being here this morning. And I would like to thank the panel 
for being here, and we look forward to your testimony. I 
certainly thank Congressman Souder for being here and holding 
this in this area and having an opportunity for all of us here 
at the local area to be involved in this and listen to the 
discussion and have an opportunity to ask questions that we're 
all interested in hearing the answers to.
    I agree with my colleague, Congressman Inslee, that we do 
have to find some solutions here to protect our environment. 
And I'm the new kid on the block, so I have some different 
ideas and some hope that, as you see, we have a panel here, we 
have Democrats and Republicans, so this isn't about a party 
issue. This is about an issue for our community. And we all 
have to take a part in this and all have to find a solution.
    One of the solutions put forward by Congressman Souder is a 
bill that would allow people to deduct--check a box on their 
income tax to donate money, to have money withdrawn to put 
toward taking care of our National Parks and helping with the 
maintenance of our National Parks. I'm a co-sponsor on that 
bill, and I'm hoping that goes forward.
    Right now the current status of that legislation, it's been 
referred to the House Resources Committee, and it's just one of 
the ideas put forth. There were several ideas that are still to 
come as we work on trying to find ways to fund this effort.
    One of the other things that we've done is we've been able 
to acquire $1.63 million which has allowed us to buy an 
additional section of property on the south side of Mt. 
Rainier, which is the Carter River Valley area, which many of 
you might be familiar with. And that's an area that everybody 
knows has had some flooding issues. So we were excited about 
that when we heard that we were able to acquire the funding to 
purchase that property.
    So this is a great opportunity really, I think, for all of 
us to come together to learn a lot more about our community, 
our national parks and to begin to really look at solutions and 
protect this environment.
    I have three children and now six grandchildren, and I 
would like them to enjoy the park systems as much as I have 
during my 54 years here in the Northwest. So I also recall a 
time when I used to have time to hike in the mountains, and 
maybe some of you have been to Lake Dorothy recently, but back 
a few years ago hikes to Lake Dorothy from the Snoqualmie/
Stevens Pass side, it was really, really well traveled, and at 
one point they had to cut the trail off to block the road so 
the people had to hike in further to reduce the amount of 
traffic that was going up to Lake Dorothy.
    So we have a lot of work to do. I'm pleased to be here and 
have an opportunity to participate and, again, thank all of you 
for being here, and we look forward to the witnesses' 
testimony.
    Mr. Souder. Thank you.
    Mr. Baird.
    Mr. Baird. I want to echo the thanks to Chairman Souder who 
has been just a champion of the parks. He's too modest to 
mention it, but Mark has a goal, which is nearly achieved, of 
visiting every single National Park in the system, something I 
envy, having loved the parks as much as I do.
    And Mark and I were proud to start the National Parks 
Caucus within the Congress and, believe it or not, there are 
caucuses for almost everything you can imagine, but there has 
never been a National Parks Caucus even though so many of us 
cherish the parks.
    I want to thank all of you, the folks here in the audience 
and particularly our witnesses, the superintendents, not so 
much for being here today, but for what you do every single day 
to preserve this magnificent treasure that we've been granted 
for generations to come. And we're grateful for your work.
    Jay mentioned his family connection. My father was a 
seasonal park ranger at Colorado National Monument. Those hats 
are very familiar. One sat on our dining room table almost 
every night.
    I note also Chip Jenkins is here. He's the superintendent 
of America's newest national park, Lewis and Clark National 
Park. And I'm pleased for the chairman's support and our 
Senators and Maria Cantwell in particular who were able to pass 
that. And I invite you all to visit the mouth of the Columbia 
River and see where Lewis and Clark hit the Pacific Ocean on 
the Washington side as well as on the Oregon side. We're 
grateful for that.
    Some years ago I tried to ask myself what is it that makes 
our country so unique and special? And if we have newcomers to 
our Nation, what values do you want to instill them with? And 
as we try to export our highest values to the world, what would 
those be?
    And after a great deal of thought and a lot of study, two 
things came to me that I think are so quintessentially part of 
our culture that have been gifts to the whole world, and they 
are the Bill of Rights and our National Park system.
    If I had to say I had only two things to pass on, I mean, 
there's jazz and baseball and lots of other stuff, but the Bill 
of Rights and the National Parks are profoundly important to me 
and to all of us I think.
    One of my concerns is I think they are both under some 
assault today, but particularly the National Parks. We face a 
multibillion dollar infrastructure backlog, and we don't have 
adequate personnel to staff the parks the way many of us 
believe they should be staffed.
    And as a result, we have seen curtailment of the naturalist 
programs that many of us recall as young people, as children. 
Remember taking your kids to the ranger? Many of us are of that 
age where we remember. We were kids, too. But at one point 
taking our kids to hear the ranger talk and learning about the 
natural wildlife and the history of the area.
    Those have been curtailed. Parks are closing. They are not 
provided needed maintenance. And we're building a backlog on 
this treasure that we've been given, a backlog of maintenance 
and current and seasonal staffing. So I think we must address 
that. So I will intend, I will say, to ask some pretty tough 
questions today.
    And I had the experience back in January of being concerned 
about whether we would have resources for our returning 
veterans from Iraq. I was convinced we wouldn't. I spoke with 
people who worked for the VA at the time, and they were pretty 
much under orders not to tell the truth. And they were told, 
``Tell anybody who asks that we have adequate resources to meet 
the needs of our veterans.''
    Well, it turns out we were more than $1\1/2\ billion short, 
and so I'm aware that any government official right now faces a 
difficult challenge, and I will not jeopardize the careers of 
these individuals because they are outstanding public servants. 
But it is of great concern----
    Mr. Souder. There is a sigh of relief.
    Mr. Baird. But I contextualized that because I have 
personal experience of seeing valuable, valiant public servants 
being put in a difficult position of being given a mandated 
admission that they passionately believe in, and yet not 
getting adequate resources to fulfill that mission, but having 
overt or implicit instructions that if they raise those alarms, 
the very career that they so cherish could be in jeopardy.
    So I will not try to jeopardize any of these folks, but I 
will ask them very pointed questions about how many naturalists 
are you able to provide right now, what kind of maintenance 
backlogs do you have, etc.
    And I will just close, I suppose, by echoing my friend Mr. 
Inslee's comments. I read with, I wouldn't say horror, but I 
would say outrage and indignation the reports about the Hoffman 
memo. In my judgment, this fellow Hoffman may be the most 
dangerous man in the United States of America today, and I aim 
to do absolutely everything I can to stop his rewrite of the 
mission of the National Parks.
    And so I thank Chairman Souder for holding this hearing and 
look forward to some very instructive and informative comments 
from our distinguished guests.
    Mr. Souder. I just want the people here from Washington to 
know that in the other Washington we also know that Brian Baird 
is one of the most shy, retiring Members on the Democratic side 
and is not known to speak out in many cases.
    And this is a very awkward process that we're all going 
through, and I want to acknowledge this at the beginning of 
this hearing because it is hard in the present atmosphere of 
Washington, quite frankly, to do anything in a bipartisan way.
    And one of our huge challenges with the National Park 
Service is not to have it get in a crossfire of what is a very 
evenly divided but steadily Republican tilt country right now, 
and that if we can't build bipartisan support for the National 
Park Service and hold that through this, it will suffer with 
everything else that gets caught in the cross fire.
    And it's very difficult because we have many things upon 
which we disagree, but we're trying to figure out how we can 
work this through. It's been very important, as you will see as 
I go through the committee rules here, and I want to say this 
for the record, that without Elijah Cummings, the ranking 
Democrat on the subcommittee, allowing us to proceed with these 
hearings even when he's not here, you can't do this. There 
aren't very many committees in Congress that can work on, 
basically, a unanimous consent basis.
    Furthermore, the chairman of the committee, Tom Davis, 
along with the ranking member, Henry Waxman, have given, in 
effect, a budget that we can set up a field hearing, pay to 
travel, pay the stenographers to do this in a bipartisan way, 
which has been very important, and I appreciate that.
    It's also not easy to get committees to get clearance to 
allow other committee members to appear at the hearing and 
participate as full committee members, as we're doing with the 
Washington delegation today.
    So first I ask for consent that all Members have 5 days to 
submit written statements and questions for the hearing record 
and any answers to written questions provided by the witnesses 
also be included in the record. Without objection, it is so 
ordered. And I ask for consent that all Members present be 
permitted to participate in the hearing and without objection, 
it is so ordered.
    The technical thing that I just did, since I'm the only 
member of the committee, I couldn't say have a voice vote, so I 
said without objection it is so ordered, which means that 
theoretically one of the Democrats could object later, but 
we've had prior sign off. But that means now everybody can 
participate in the hearing.
    Our first panel is composed of----
    Mr. Baird. Mr. Chairman, I just want to thank you for that 
in all seriousness. It would have been very easy for the 
chairman or others to say either, A, you cannot have the 
hearings or, B, you can have them, but you can only invite 
Members.
    And we are certainly grateful, caring as we do for the 
parks but not privileged enough to serve on that committee, 
we're grateful for your indulgence in allowing us to be here.
    Mr. Souder. Our first panel is composed of Cicely Muldoon, 
deputy regional director for Public Use, Pacific West Region; 
David Uberuaga, superintendent of Mt. Rainier; Bill Laitner, 
superintendent of Olympic; and William Paleck, superintendent 
of North Cascades National Park, who are not official 
witnesses, but may be able to answer questions.
    Now, as an oversight committee, it's a standard practice to 
ask all those who testify to do so under oath.
    I appreciate that what wasn't known in our previous hearing 
was that Mark McGwire ducked the subpoena for 3 days because he 
knew that if he came and testified under oath, he could be 
prosecuted for perjury as Rafael Palmeiro is finding out right 
now. The question is did he answer the questions when he was 
under steroids or not, and the latest we have is we still don't 
know. We're trying to sort that out because it appears he may 
have been.
    Now presumably, first off, I'm not going to ask any steroid 
questions. Second, if you will stand, each stand and raise your 
right hands.
    [Witnesses sworn.]
    Mr. Souder. Let the record show that each of the witnesses 
responded in the affirmative.
    Ms. Muldoon, we'll have you speak, and then everybody else 
can field questions.

   STATEMENT OF CICELY MULDOON, DEPUTY REGIONAL DIRECTOR FOR 
    PUBLIC USE, PACIFIC WEST REGION, NATIONAL PARK SERVICE, 
  ACCOMPANIED BY DAVE UBERUAGA, SUPERINTENDENT, MOUNT RAINIER 
 NATIONAL PARK; BILL LAITNER, SUPERINTENDENT, OLYMPIC NATIONAL 
   PARK; AND WILLIAM PALECK, SUPERINTENDENT, NORTH CASCADES 
                         NATIONAL PARK

    Ms. Muldoon. OK. Thank you very much.
    Mr. Chairman, Congressmen, good morning and thank you for 
the opportunity to appear today at this oversight hearing on 
issues facing the National Park Service in the Pacific 
Northwest. Thank you, too, for your continuing support of 
Congress for parks here in the Northwest and throughout the 
National Park System. It's really terrific to have you all out 
here and have such a good showing from the State.
    As requested by the committee, our testimony today 
highlights activities and issues related to maintenance, 
funding, homeland security, partnerships and environmental 
stewardship. And I know how Congressman Reichert feels about 
being the new kid on the block, so I'm very pleased to have my 
colleagues from the big three parks here today to join me in 
the questions.
    So to begin, I would like to speak to the Pacific West 
Region, itself, and how we're organized. The Pacific West 
includes 58 parks in Washington, Oregon, California, Nevada, 
Idaho, Hawaii and the heart of the Pacific. Now, this testimony 
is specific to the parks in western Washington and northwestern 
Oregon, which we call the North Coast and Cascades Network. 
This network includes Olympic, North Cascades, Mt. Rainier, San 
Juan Island, Lewis and Clark, Klondike Gold Rush, Ross Lake, 
Lake Chelan, Fort Vancouver and Ebey's Landing.
    The networks of parks is a concept born of the Natural 
Resource Challenge, and they work collaboratively to share 
staff, training and expertise in all aspects of park 
operations. So the large parks do a lot of the supporting both 
of each other and small parks in every network across the 
region.
    I would like to highlight a few of the projects in the 
Northwest parks that speak to funding sources, the maintenance 
and visitor services and homeland security. Annual operational 
funds, of course, are fundamental to our ability to keep day-
to-day operations running, and we deeply appreciate the 
increases in operating funds Congress provided to the National 
Parks in both fiscal year 2005 and upcoming in fiscal year 
2006. Other annual operational funding is dedicated to cyclic 
maintenance needs and repair and rehabilitation projects.
    And for major construction projects, our parks have 
appropriated construction funds, recreation fees and 
contributions from other sources. The Transportation Equity Act 
also provides a critical source of infrastructure funding, 
authorizing more than $1 billion in funding for park roads over 
the next 5 years.
    So as some examples, locally North Cascades has repaired or 
replaced aging infrastructure, campgrounds, trails, power 
lines, bridges, roads and visitor facilities using line-item 
construction funds, emergency storm damage moneys, 
rehabilitation funds, user fees and mitigation funds that total 
more than $7 million in recent years.
    With 20 miles of boundary shared with Canada, North 
Cascades also is a porous avenue for illegal aliens and drug 
trafficking across the border. The budget increase from 
Congress in fiscal year 2004 has been used to add park rangers 
so that we're better equipped to assist with the Department of 
Homeland Security in securing our borders and protecting both 
park visitors and park resources.
    At Olympic, the range of improvements include picnic tables 
and campfire grills, improved roads and back country trails, 
accessible restrooms and seismic retrofits. Olympic received an 
operating budget increase of 4 percent for fiscal year 2005 
which has enabled the park to hire additional seasonal 
employees and include visitor services.
    And finally, in the last 2 years at Mt. Rainier, the 
National Park Services has completed four major construction 
projects, and two other multi-year construction projects are 
about to begin--rebuilding the Jackson Visitor Center and 
rehabilitating the Paradise Inn. I see I'm out of time.
    Mr. Souder. In the field hearings, we are a little more 
generous with the 5-minute clock. We want to make sure we hear 
what you have to say.
    Ms. Muldoon. Thank you for that. I don't have far to go.
    Another area in which Northwest park work extensively is in 
partnerships, and the national parks in Washington State have a 
long history of working with their neighboring national 
forests. They share offices and visitor orientation facilities. 
We share resources for wildland firefighting and emergency law 
enforcement response.
    The newly designated Lewis and Clark National Historic Park 
is a leading national example in Federal/State collaboration 
with Washington, Oregon and the National Park Service working 
in concert to preserve the sites important to this great story 
on both sides of the Columbia.
    Seattle City Light uses runoff from North Cascades to 
produce 25 percent of Seattle's electricity. This utility spent 
$10.7 million to build the park's new Environmental Learning 
Center which opened this past July. The North Cascades 
Institute, a non-profit park partner for nearly 20 years, 
operates and maintains this facility.
    And finally I would like to touch on environmental 
stewardship in the Northwest. Addressing threats to the natural 
ecosystems is, of course, one of the greatest challenges we 
have in the parks in the Northwest, and it's an area where 
we're beginning to see some successes.
    I think Olympic might be our poster child as the site of 
one of the Nation's most critical restoration products, removal 
of two dams on the Elwha. This will be the largest dam removal 
effort in the Nation to date and I believe the second largest 
restoration project in the National Park System.
    We expect this project to result in restoration of salmon 
and steelhead habitat and populations which will benefit the 
Elwha tribe and the local communities and restore a healthy 
ecosystem.
    Invasive species are a critical threat in the Northwest and 
throughout the Nation, and the Northwest parks are actively 
engaged in working with public and private partners to combat 
invasive species, particularly plant species, throughout the 
region.
    So with that, Mr. Chairman, that concludes my statement, 
and we will be happy to answer any questions.
    [The prepared statement of Ms. Muldoon follows:]

    [GRAPHIC] [TIFF OMITTED] T7380.002
    
    [GRAPHIC] [TIFF OMITTED] T7380.003
    
    [GRAPHIC] [TIFF OMITTED] T7380.004
    
    [GRAPHIC] [TIFF OMITTED] T7380.005
    
    [GRAPHIC] [TIFF OMITTED] T7380.006
    
    [GRAPHIC] [TIFF OMITTED] T7380.007
    
    Mr. Souder. Thank you for your testimony. Tell Jon Jarvis I 
said hi. I very much appreciated that when he was 
superintendent and we had a problem with our car, I still 
remember him running alongside the car trying to hear what was 
wrong with it. My wife was not going to go down. Brian was 
telling me about--I'm not a climber. He's a climber. We were in 
a car. But my wife wasn't going to go down the mountain with me 
in that car. So he saved us at that time, and I appreciate 
that.
    I listened to a number of the things that were proposals 
back then now being implemented. If I could ask, I remember I 
believe it was 2001 when I was at Olympic when this river dam 
project was about to be started. Has this been moved back? When 
was the original target?
    Mr. Laitner. Sir, I would be happy to. First of all, thank 
you for the invitation to be here. We appreciate the 
opportunity to come before Congress. Quite frankly, though, I 
wish we were on a trail with you this afternoon rather than 
sitting here.
    The Elwha River restoration project is the second largest 
project that the National Park Service has ever undertaken. 
Right now the current schedule is to begin dam deconstruction 
in late 2008.
    Because there are 22 million cubic yards of silt behind the 
dams, we need to make sure that the drinking water for Port 
Angeles and the industrial water for Port Angeles remains 
clean. So the National Park Service is in the process with the 
city of building a municipal water treatment plant and 
industrial water treatment plant.
    We're working with the tribe to construct a new fish 
hatchery so that when this habitat opens up, we can restock the 
area. We're working with the tribe to extend the levy for flood 
protection.
    We're working with neighbors outside of the park on the 
Elwha River to insure that their properties don't become 
flooded. And we are in the process of building a greenhouse to 
re-vegetate that area with many millions of plants.
    So all of those things need to take place prior to dam 
deconstruction. But we're, with our many partners, moving fully 
ahead to open up 74 miles of habitat for salmon and steelhead 
that is now closed because of two dams.
    Mr. Souder. I would like to look at this, this is kind of a 
mini case here for a second, and how we look at questions like 
backlog. Has that been--it's hard for us to tell what is a wish 
list, what is a backlog, what is in need of imminent repair. 
Has that been counted in the backlog up until now?
    Mr. Laitner. Actually, I don't believe that has been 
included in the backlog. Parks are at different stages of 
determining what their backlogs are.
    Olympic National Park this summer had a contract team come 
in and do what is called a Comprehensive Condition Analysis of 
our front country facilities. What do your buildings look like? 
What repairs do you need? What do your utility systems looks 
like? What repairs do they need?
    And the results of that team coming in are not yet into the 
computerized system, so it appears for Olympic, for example, 
that our number is $23 million, which is quite a lot lower than 
Mt. Rainier's. It doesn't mean that Olympic's facilities are in 
much better condition than Mt. Rainier's. It simply means that 
our needs have not yet been entered into this national 
computerized data base.
    Mr. Souder. When you said that you are in the process of 
working with the Indian nations, with the community of Port 
Angeles, all of which were critical before that project was 
ever going to be undertaken, will there be funds outside the 
Park Service, say, through the Department of Interior that go 
to the Indian nation, through the Department of Energy or water 
resources or wherever the money might come from to Port Angeles 
in addition to the Park Service or is this going to go through 
the Park Service budget.
    Mr. Laitner. Most of the money comes through the Park 
Service budget. However, especially in the field of research, 
we are looking to many partners. A National Science Foundation 
Grant just went to Peninsula College in Port Angeles and to 
Western Washington University in Bellingham for $1 million to 
study the effects of dam removal.
    I mean, what a great opportunity to look at an area that 
was pristine, two dams went in, almost 80 years went by with 
nothing else happening, two dams are going to come out, and be 
able to look at the changes.
    We're looking for a lot of private support for that part of 
it. There are also some moneys from the tribe and some from the 
city, but the bulk of the funds come through the National Park 
Service.
    Mr. Souder. So when we look at a park budget, and taking 
Olympic in particular here as an example, you are going to have 
a backlog figure, you are going to have a general operations 
figure, and then something like this would be an additional 
project.
    Mr. Laitner. Right. It's in the portion of the budget that 
is the line-item construction, and that money to do all those 
things that I mentioned comes through that funding source.
    Mr. Souder. And if the region is giving--unlike most 
discretionary funds, at least the National Park Service got an 
increase, it's right around 3 percent or thereabouts, so in a 
region then--maybe, Ms. Muldoon, you can address this question.
    If there is a project that is a new project, and that 
project presumably is going to be, although, it's out in 2008, 
is going to take money, do you see this coming out of the 
operations or kind of tackle the backlog? How do you make a 
priority decision?
    Ms. Muldoon. A project like the Elwha would never come out 
of operations. It's too big of a one-time shot. That typically 
in our world comes out of the line-item construction funds. 
Anything that is over $500,000, a project of that size competes 
nationally with other line-items.
    Mr. Souder. If I may interrupt you for just a second then, 
if you are saying you get it out of the line-item construction, 
is it Congress then that is determining whether something goes 
to line-item construction or NPS? Because if you have $100, 
let's just say it was $100 in the total budget, and you have a 
backlog in your general operations, 3 percent doesn't even 
cover--a 3 percent increase means you have lost ground in 
staffing. So that section of the budget is losing ground.
    How do you make a decision and who makes the decision? Is 
it made at the national, at the regional or the park level as 
to, yes, we're going to put this money in new construction, 
which means we're going to be this much extra short?
    We all know what the numbers are. There's no way to handle 
the pensions, health care, the salaries, under the existing 
structure, and the backlog isn't going down. So the question is 
what do you do with the projects, which I don't want to kill 
new projects, so the question is how are you--where does this 
money come from and who is making that decision?
    Ms. Muldoon. The full answer for the record on that one, I 
would defer to my colleagues. My understanding is that for much 
of the line-item construction funding in particular, the Park 
Service sets priorities and submits them to Congress, and 
Congress assigns those priorities and line-items and more 
parks.
    Mr. Souder. For parks, which I'm for. We're the elected 
officials. It's just I'm wondering then how that ripples into 
the system. If there's an earmark in your area that comes 
through, does this come out of your other budget then.
    Ms. Muldoon. If there's an earmark in line-item 
construction, it just bumps down our existing priority list for 
line-item construction which is set regionally and then also 
set nationally. Parks compete for those projects. So the Park 
Service has a standing priority list for construction, and 
earmarks are inserted in that priority list, so it just bumps 
them down through the years.
    Mr. Souder. I will followup on that question. I mean, the 
total budget for the parks or anything else, in other words, if 
we earmark it for that, if we earmark it in highways, that 
total budget doesn't change? It comes out of that, and 
presumably earmarks are then assigned by region or something by 
the Park Service? It doesn't mean it necessarily goes up to 
that region.
    That's what Brian was asking, and I'm curious, too, in 
relation to the same question, what happens precisely when 
something gets earmarked, how does that ripple through in the 
budget and what does it do?
    Does it mean that what I understood you to say is it comes 
out of the Pacific West Region, it comes out of the zone marked 
construction, so there's less other, but somebody also made the 
decision to keep a certain amount of dollars of construction 
versus operation and backlog?
    Ms. Muldoon. That's right. You know, I'm going to defer to 
Dave Uberuaga on this one.
    Mr. Uberuaga. I will try that. So we have distinct pockets 
of money, if you will. Line-item construction is a stand-alone 
in the Park Service appropriation. And each park has needs of 
projects that are over $500,000 prioritized at a park level 
that are prioritized and compete on a regional level and then 
as well on a sophisticated scoring system based on needs, 
safety and visitor access, how many people are receiving the 
benefit from that and how serious of a maintenance backlog 
maybe even that is involved in repairing this facility.
    So those priorities within the line-item construction are 
in that category of that budget. And sometimes we've had as 
much as $400 million in line-item construction, sometimes it's 
as low as $150 million, but in that range depending on the 
appropriators.
    So in the case, I will give an example, Sunrise Lodge at 
Mt. Rainier was scheduled on the Park Service's and Mt. 
Rainier's schedule for funding in 2008. That would have been on 
the table for the appropriation 2008. Based on the priorities 
that are coming in, something was inserted, earmarked, if you 
will, in 2004 or 2005 that bumped all projects that were below 
it, maybe bumped them down in a priority, and finally that 
particular project was rolled to the next year. So Sunrise is 
going to be in fiscal year 2009 in this year's schedule.
    It doesn't mean it's off the table. It just means if there 
have been any inserted, then it would have a ripple effect 
through the whole priority. But line-item construction is kind 
of self contained and the appropriators range depending on 
funds available.
    Mr. Souder. And my impression, and I will ask Mr. Dickenson 
who has had expertise at the Federal level for years, too, is 
that then in reality, the Park Service will make a request 
that's basically--I mean, you have this ongoing kind of project 
list that really you are working out.
    How far would you say, if you have new proposals, are you 
now proposing out to 2012?
    Mr. Uberuaga. We have a rolling 5-year program.
    Mr. Souder. So 2010 is the farthest out you are. So if you 
have new things, you are kicking it in to 2012 now. And then 
Congress, when we put earmarks in, we bump a certain amount of 
that back, and those presumably you make requests up to the 
regional office, the regional office then kicks them up to the 
Park Service and reworks it coming over to Congress and then 
Congress tinkers with it. Is that the general process?
    Ms. Muldoon. Yes.
    Mr. Souder. So when we earmark, it doesn't necessarily 
change regions, and it doesn't necessarily change accounts. It 
just alters the year structure within those accounts for 
everything else in that region.
    Can the regional director reshuffle if he wants to keep 
certain things or do you have the flexibility or once you have 
this kind of long-term plan, how locked down is that plan?
    Ms. Muldoon. The regional director has some discretion to 
reshuffle, but generally line-item construction gets set as a 
region, and then it moves on to a service wide priority setting 
committee, so then those priorities are set on a service wide 
basis. So our boss couldn't take a Pacific West project and put 
it over on a Southeast project that has already been put on.
    Mr. Souder. But he could switch it around in the Pacific 
West or is that----
    Mr. Uberuaga. He has that discretion.
    Mr. Paleck. I think it's 10 percent, and then we re-program 
it, request to re-program it.
    Mr. Souder. Particularly when you have cooperative 
agreements, I would assume that puts some pressure on it as 
well because if Port Angeles and Indian nations said, ``OK. We 
have our money. We can't go two more years or we are going to 
lose it,'' you would be able to--do you have a process to, in 
addition to 10 percent, do a request that would be--I mean, is 
that done or is that considered?
    Mr. Uberuaga. Well, if I understand it correctly, in the 
evaluation of each project, there are a number of scoring 
factors. So partnership is a scoring factor, you know. If it's 
a life/safety/health issue, that scores more. So all of the 
projects are ranked, and so there is a scoring in that 
relationship.
    So if something does come up, and then it's re-scored, you 
can look at that and move it up in priority, and the regional 
director has that discretion.
    Mr. Baird. Thank you, Mr. Chairman, and thank you to the 
witnesses. Just to make sure I understand, let's suppose 
theoretically your region has $1 billion just for a nice round 
number.
    Mr. Paleck. Sure.
    Mr. Baird. It's a nice round number. And you decide we're 
going to try to get money for a particular project that we find 
important. It doesn't sound like you have actually added money 
to your region. It sounds like to me what we have done is we 
have forced you to take that money that we just patted 
ourselves on the back be earmarked and moved that higher up the 
priority list, so it would mean other things got knocked back. 
Is that correct?
    Ms. Muldoon. That's correct.
    Mr. Baird. We should know that when it's being earmarked.
    Mr. Uberuaga. You can add funds to the earmark.
    Mr. Baird. That's a helpful suggestion. I would be remiss, 
by the way, if I didn't also acknowledge the presence of the 
NPCA. The National Parks Conservation Association has been a 
stalwart supporter of the parks, and I am grateful for their 
presence. I also want to mention our wonderful Fort Vancouver. 
We should acknowledge that and appreciate that, and Tracy 
Fortnum does a fantastic job.
    We have, coincidentally, a visitor center project down 
there which we would like to see funded. For some people who 
are 40 years old now and growing, the use of that park would 
warrant some funds for that.
    You mentioned earlier the field had $1 billion in National 
Parks over 5 years. Any sense off the top of your head? $1 
billion sounds like a lot of money, but I'm wondering any sense 
of the total number of road miles of international parks, even 
a rough approximation, or in your own just for example?
    Mr. Uberuaga. At Mt. Rainier, I have 88 miles of paved 
road, all national historic landmark designated road. So there 
are cultural roadways as well as the infrastructure that ties 
all of those together. And I have seen contracts recently from 
$1 million a mile to $2 million a mile even in the State here 
in terms of what the projects cost.
    Mr. Baird. Is that for maintenance or----
    Mr. Uberuaga. That would be for reconstruction and 
rehabilitation of the roadway. So in the bill, those are 
primarily for reconstruction, rehabilitation of our roadways. 
At Mt. Rainier, we have seven projects in the package there, 
and they are all $5 to $7 million each over the next 5 years.
    And so that impact in our case would be about $75 million 
in maintenance backlog currently in the 5-year program for our 
roads at Mt. Rainier.
    Mr. Baird. The reason I ask that is because one of the 
things I found back there is you can have a number that sounds 
pretty big, like $1 billion nationwide, and then when you start 
breaking it out to where the demands are on it, you realize 
it's not big at all.
    So if you have 88 miles of road, and it takes $1 million to 
refurbish a mile of road, and this is difficult terrain, you 
have all kinds of sensitivities, sometimes shifting landscape, 
rock falls, creek passages, etc., so you say here's Mt. 
Rainier, $1 million a mile, 88 miles in one park alone.
    If you look at a park like Yellowstone or Yosemite, you 
pretty quickly add on, and you realize that's how we get to 
these shortfalls when we talk about billions of dollars in 
shortfalls. You just simply do the math, and you realize that 
what sounds like a big number.
    And it's fun, I mean, as a politician or administration, 
you can pat yourself on the back and say, ``By God, we have $1 
billion in this bill,'' and everybody says, ``Oh, my goodness, 
$1 billion is a lot of money.'' And then you start piecing it 
out, and you realize it's a lot, but it's not nearly a lot 
enough.
    Mr. Souder. May I make a point for the record that official 
testimony says correctly that there was a 27 percent increase 
since the last highway transportation bill. The last highway 
transportation bill was 6 years ago which means just basic 
inflation would have taken about 24 percent of that. So it's 
really at most a 3-percent increase assuming the highway costs 
didn't go up at a faster rate than general inflation, which it 
would, and that's part of the problem with the numbers.
    Mr. Baird. Exactly, and that's part of the reason that Mr. 
Souder and I have responded is in recognition of that. And our 
goal is by the 100th anniversary, we can eliminate this backlog 
with the help of voluntary largely contributions from our 
taxpayers.
    Now, on a similar kind of--I'm going to pursue this issue 
of maintenance, and over the last number of years, I'm going to 
ask each, if I may, just give me your best assessment of what 
has happened here to the systems in terms of trail maintenance? 
How many miles of trail have you been able to improve? Are 
there trails that you have closed down or are not maintaining 
and letting them sort of survive as they will under the rigors 
of human transport and nature?
    Mr. Paleck, let's start with you.
    Mr. Paleck. Thank you, Mr. Baird. North Cascades National 
Park Service complex has 398 miles of trail. As you may recall, 
there was a devastating flood in October 2003, and most of our 
attention shifted from routine maintenance to replacing major 
bridge structures, replacing entire sections of trail that were 
lost in the flood.
    In fiscal year 2005, we received $689,500 for emergency 
storm damage. The year before, it was $668,800. Most of that 
money, frankly, went to trail repairs and major bridge 
structure repairs. And I'm pleased to report that by the end of 
this fall, we'll have all those major trail structures 
replaced. There was also damage to campgrounds and roads, but 
the road money comes from separate accounts.
    The challenge of maintaining 398 miles of trail with a 
limited and shrinking staff in a place that grows vegetation 
quite profusely is a real challenge. Happily we have a very 
skilled crew. Also we rely on the efforts of volunteers that 
help us. The Pacific Crest Trail, for example, goes through a 
portion of the park, and we rely on PCA volunteers.
    To say that we're keeping all 398 miles of trail in a 
constantly well-maintained condition would not be accurate. So 
we make decisions based on popularity of the trails and the 
conditions as we encounter them.
    Mr. Baird. I appreciate that. One of the reasons I ask the 
question is I've have constituents recently come tell me 
they've been hiking on the trail system in the park with their 
family, and the trails were basically gone, and they had to 
turn back both for safety concerns and for fear they might get 
lost because it was just gone.
    Mr. Uberuaga.
    Mr. Uberuaga. Thank you. In Mt. Rainier, we have 228 miles 
of maintained trail, and we have almost another 100 miles of 
non-maintained trail, just the end of the road in some cases 
that it's noted in the trip planning as well.
    We have relied on our fee demonstration funding to maintain 
our trails. We have based it on really three trail positions. 
The rest of them are relying on project dollars each year to 
see what project dollars we get for what trails we'll be able 
to open and maintain.
    We have the supervisor of our trails who has been at Mt. 
Rainier 40 years. He takes exceptional pride in every linear 
foot of that trail, every culvert. You can ask him about every 
foot bridge. And the crew and its dedication, to me, has made 
the trail system what it is today and how it's maintained. It's 
their dedication. It's their pride. They can't go home until 
that segment is done.
    We've had a tremendous amount of volunteers. The most 
common volunteer effort at Mt. Rainier is for companies, 
whether it's Unilever or K-Mart or in this we've had Boeing Co. 
quite often come in with crews to help facilitate our trail 
maintenance throughout the park.
    On a couple of occasions, and I could speak to it myself 
coming up to a trail this last year with a river crossing, 
actually a small stream crossing, and what we have done over 
the years is look at rather than an extensive bridge across 
that line-item, we put what we call a stringer or a log bridge, 
and in those cases some of those log bridges can be knocked out 
one or two times, three times a year.
    And with our regular patrols, a crew may not be out for 3 
or 4 days before they find the log has been removed and they 
have to replace it.
    So in general our trail crews rely on project dollars 
specifically for trail bridges, trail tread and erosion and 
have done an outstanding job. But every year we are not sure if 
we are going to get the money to do that. And just the regular 
season opening of fallen timber across trails is monumental. We 
survived the flooding with about $140,000 in back country trail 
damage that did not specifically fund--we did not get any money 
specifically to overcome that deficit, but the trail crew 
through their ingenuity and some resources around the park took 
care of those deficits just this last summer and during the 
winter as well.
    So that would be my comments on our trail system.
    Mr. Baird. Thank you.
    Mr. Laitner. Olympic National Park has approximately 600 
miles of trails that range from trails on the Pacific Coast to 
trails through the Rain Forest and trails in the high country. 
In 1998 and 1999, the Pacific Northwest before I got here was a 
very strange winter. It would snow, and then it would rain, and 
then it would snow and then it would rain.
    And much of that snow accumulated on bridges, and it wasn't 
just snow, it was ice. Normally the snow will come on the 
bridges, it will get to a certain point, and that's as much 
snow as you can get on there. Well, in that year several 
bridges collapsed. It took us from early 1999 until 
approximately the middle of 2003 to fix those bridges.
    I remember talking with the trail crew, and we were kind of 
getting the feeling like we were getting ahead, we were real 
proud of flying in two major bridges that were over 100 feet 
long, and then in the fall of 2003, there was that rain storm 
that my colleagues have referred to, and we lost all of the 
ground just about that we gained. We lost several roads that we 
did repair and a lot of miles of trail.
    Olympic National Park did not get any storm damage, 
emergency storm damage money, so we took the project money that 
would have gone to other projects and redirected that to higher 
level emergencies.
    I had the distinct pleasure of being out in the park over 
Labor Day, and I did a solo hike of about 55 miles. And I had 
crossed the Elwha River at Chicago Camp, and I had slipped on 
the rocks and gotten my feet wet and stopped and got across and 
took my boots off and put my dry socks on.
    And I looked at the map and said, ``Well, at least the next 
stream crossing has a bridge.'' And I got to the next stream 
crossing, and it had half a bridge. It had a very nice half 
going over the middle of the river. And I had forgotten that 
had been washed out during the floods of 2003. And so I took my 
boots and socks off and put on my Teva's and went across the 
river one more time.
    I think that park visitors have gone through that many 
times over the 600 miles of trails. I think we have gotten 
trails so that you can find the root, but we have certainly not 
repaired trails. As Dave Uberuaga was saying, most of our trail 
crew are based or paid out of project funds rather than 
National Park Service based funds. That was not true 10 years 
ago. It was just the opposite. We had trail crews paid out of 
base funds. But we rely on volunteers, some foresters come in, 
some conservation associations, Washington Conservation, a 
number of groups come in to help us out.
    But our 600 miles of trails need work. Actually on another 
hike, I met two seasonals who I had not met before. They were 
hiking, and they had this wheel that they were pushing along. I 
knew that they weren't the usual back country users. They were 
inventorying all the trails and the condition.
    And we don't have that yet in our maintenance backlog, and 
I think that's another reason why our number at Olympic 
National Park is low. Mt. Rainier National Park is a pilot park 
and has more up-to-date information on roads and trails and 
maintenance needs than does Olympic.
    And I think that in the next year when we catch up, if you 
will, it's going to show that there are significant needs at 
Olympic National Park.
    Mr. Baird. I thank you. And the one thing I would say is we 
hear a lot about waste, fraud and abuse in government, and 
there's no question in my mind that we need to eliminate that. 
One thing we don't hear about are the employees who work 
tremendous hours, tremendous dedication, volunteer time, and we 
owe them a great deal of thanks because as resources have been 
cut, these employees have really taken it on their own to try 
to keep fighting the good fight to keep the resources.
    And I want to thank you and thank them through you, and if 
you pass on our gratitude, I would appreciate it.
    Thank you, Mr. Chairman.
    Mr. Souder. Mr. Reichert.
    Mr. Reichert. Thank you, Mr. Chairman. And I want to take 
the opportunity to thank you, Dave, for your tour several 
months ago of 3 to 4 hours. We had the opportunity to watch 
some volunteers in action repairing one of those foot bridges. 
And they offered me a chainsaw, I think, and I turned it down. 
But it is a great experience to see volunteers, people from 
around our community, come out and meet these challenges.
    You know, in my previous life with the sheriff's office, we 
depended a lot on volunteers, 2,500 volunteers through our 
search and rescue program working on Green River, working on 
you name it, and they were always there. So this is a truly 
community effort.
    And by the way, you serve a great lunch and have homemade 
pie and all that stuff out there. So I can see that's one of 
the other reasons why they come out, plus just the fun of it.
    We've talked a lot about, you know, the funding sources 
that you have, and I just jotted down a few notes. The Natural 
Resource Challenge, 160 percent increase over 2001 from $25\1/
2\ million to $76.6. What does that really mean, the Natural 
Resource Challenge, that increase, what does that actually get 
used for?
    Ms. Muldoon. The Natural Resource Challenge has been around 
since 2001, and that is actually new money that Congress has 
appropriated to the Park Service. It was an initiative that 
sort of came from the ground up. Superintendents put it 
together and identified the lack of knowledge that the Park 
Service really had across the system in understanding the whole 
realm of our resources.
    So the intent was to establish the natural resource 
challenge, get a certain level of funding every year from 
Congress, which happily you folks did to help us understand the 
resources we have in the parks and help us make decisions that 
were based on good science.
    Mr. Reichert. So how does--just to followup on that, the 
good science effort and those fundings that helped you kind of 
evaluate the resources, how does that apply to how you 
prioritize your maintenance backlog? Does that science come 
into play in that effort?
    Ms. Muldoon. That's a good question. I will let the 
superintendents speak to how that might have happened in their 
parks.
    Mr. Reichert. Not yet maybe? See, I always seem to stump 
the panel.
    Ms. Muldoon. That's a good one.
    Mr. Uberuaga. Actually, sir, there's a lack of scientific 
knowledge in all the parks in terms of the species and bio that 
are in existence there, so the Natural Resource Challenge was 
kicked off in 1999. Actually it was announced during the 
National Park Service celebrating Mt. Rainier's 100 
anniversary. So at our centennial celebration, we had the 
director, and that was the announcement.
    And the goal of that campaign, if you will, was to increase 
funding for science and natural resources $100 million over the 
next 5 years. That was the original goal that Congress began, 
and so every year it funded for that.
    In terms of the resources that are assigned under the 
Natural Resource Challenge, there isn't a direct connection 
between that science and our preferred maintenance in a lot of 
cases. The preferred maintenance primarily has been some re-
vegetation, so there's been some of that, but for the most part 
it has been the big infrastructures, roads, treatment plants is 
the main focus. So it's a direct connection to the deferred 
maintenance.
    Mr. Paleck. I can give you one example. The flood in 2003 
literally wiped out half of the campground, the Colonial 
Campground, off of State Route 20. It was a campground we 
inherited from the Forest Service in 1968. And that portion 
based on the hydrological studies that have been done is that 
the campground never should have been put in that place.
    And the science informed us that in looking at what repairs 
should we do, we shouldn't try to rebuild the entire 
campground. Instead we should back off, accept the loss of half 
a dozen sites in order to site the facility in a place where it 
can be sustained.
    Mr. Reichert. I was just curious as to how this might 
impact the efforts there in making decisions on just that kind 
of scenario.
    So I would think that good science helps us to make good 
decisions and helps us to direct our resources where they are 
most needed.
    And we have talked about the increase of the transportation 
budget which really ends up to be instead of 27 percent, as the 
chairman said, 3 percent. And there's been a substantial 
increase in your operating funds, but you are still falling 
behind, you know, your real needs. So the bottom line is how 
much money do you need for your maintenance backlog? Do you 
have a figure you can give us today?
    Mr. Uberuaga. I think you would be in shock.
    Mr. Reichert. Because Brian is ready to write a check.
    Mr. Uberuaga. Well, I just have a little bit of context 
here in terms of the deferred maintenance. Let me just use Mt. 
Rainier as an example. Mt. Rainier is the fifth oldest national 
park in the system. It's 106 years old. The infrastructure that 
was created when the park was designed is all part of the park 
experience, plus 3 percent of the front country is now national 
historic landmark district. Almost all of that is our roadways.
    And so all of those historic villages connected through the 
roadway system are also cultural resources all obtaining the 
national standard or the high standard in the country of 
national historic landmark district.
    So you have cultural preservation on top of just 
maintenance of infrastructure, and so the preservation and the 
combination of those has contributed to the overall cost to the 
rebuilding of those.
    And for Mt. Rainier, $71 million is what we have in our 
system. Again, we were a pilot study for what we call asset 
management, primarily what are the biggest assets we have at 
Mt. Rainier, and we prioritized them from No. 1 to 229 and on 
and on until we had each one ranked and prioritized. And then 
we did field condition assessments that would look at that 
structure and say how much is it going to take to repair that.
    And then there's another level of funding coming that would 
have an architect or engineer come in instead of a historic 
carpenter and kind of touch up the professional judgment of the 
carpenter and then say here's the best estimate of what the 
deferred maintenance is on this, and this is the condition of 
this facility.
    So, based on that and the new asset management program, 
there are industry standards that are applied to estimate how 
much it would cost to repair those. So we are looking at 
industry standards, industry practices for assessing conditions 
of facilities, finding out how much it's going to cost to 
repair and then estimating those costs of repairs. So that's 
all built into the National Park Service system now, and each 
park is taking on that challenge to more accurately define this 
backlog.
    But what I can tell you, quite frankly, is the more you 
delve into it, you know, what was maybe a carpenter's guess as 
to how much it was going to take to rehab a building, what was 
our initial input into all the systems, and when you come back 
with a professional architect, for example, and they look at 
every detail, then those numbers all have tended to go up.
    So at Mt. Rainier, the historic roads that are out there is 
about $71 million, as I said. Just two visitor projects alone 
at Mt. Rainier, rehabilitation of the national historic 
landmark building Paradise Inn, which is scheduled for 2006, 
that's a $13 million project, and the replacement of the Henry 
M. Jackson Visitor Center with a new visitor center, between 
those two it's a $35 million in deferred maintenance backlog. 
Those are backlogged projects in the National Park System at 
Mt. Rainier.
    So those two replacements, plus the replacement of the 
Sunrise Lodge, which is another $10 to $12 million project, 
those are the three biggest pieces that add up to $35 million 
in Mt. Rainier backlog.
    And then when I did the inventory on the trails, the 
bridges, the campgrounds, several water systems, several sewer 
systems, all the historic buildings that we have that are all 
contributing factors to the cultural districts, all the back 
country structures and then power systems, at two parts of the 
park alone we generate our own power, at Sunrise, the second 
most visited destination in the park, we are off grid. So you 
look at those systems, and they do take a lot to repair.
    And what I would call our projected backlog at this time is 
$168 million for Mt. Rainier.
    Mr. Reichert. Thank you, Mr. Chairman.
    Mr. Souder. I don't want to make it a request, but first 
off I would like to have the full document inserted into the 
record. Is that a problem?
    Mr. Uberuaga. No.
    Mr. Souder. The second thing is if you have similar 
documents for the other parks, that would be helpful, that 
would show the specifics of your backlog.
    I don't want you to waste limited time coming up with 
something that you don't have, so when I say go back 5 years, 
if you have it, say, like one from 3 years ago and one from 6 
years ago, but to do a comparison to see how that backlog is 
moving. In other words, did it drop? Did it go up? And how much 
of that is because either projects have fallen into backlog 
because they haven't been maintained and how much of that is 
inflation and how much it would take to do it if we had done it 
5 years ago.
    Because I'm not sure exactly, I don't want to make this too 
big of an effort, but one of the things that we're sorting out 
here is the assigned date to pick up projects like you just 
mentioned with Sunrise, Paradise, roads, trails, moves. It's a 
moving target based on how much we fund national priorities. 
When we add something like the Lewis and Clark Park, it changes 
a region, that you can easily on those backlogs show if there's 
any kind of tracking of how many times that's changed.
    In other words, like let's say Sunrise Lodge is slated for 
2005, moved to 2006, moved to 2008 or moved to 2009, so we can 
just kind of get a feeling for what is happening with the 
budget process as to how you are moving things around.
    The bottom line is this is going to blow a huge hole in our 
budget and everything, and every agency is feeling squeezed. I 
mean, part of the reason we have to be cautious working with 
this is that we can talk about a tax increase and we can talk 
about other things, but even then we're talking about a 
relatively small zone. We have these same problems with 
Medicaid, Medicare, water clean up around the country, so there 
are going to be squeezes.
    What we want to know as the Congress is that we have a 
right to know what squeezes are being made. And we don't feel 
right now that we really have a good feeling for the decisions 
that are being made. We may still have to make them, but we 
need to know what they are.
    Mr. Uberuaga. OK. Help me clarify this, then. And it wasn't 
indifference to Katrina and the other country needs that I said 
that, but in terms of----
    Mr. Souder. No, I understand that.
    Mr. Uberuaga [continuing]. This involving truly commiting 
what I call a very sophisticated asset management program in 
place for the National Park Service to articulate clearly to 
the appropriators that this is a bona fide need and here's how 
we determine that and just recognizing there's a whole range of 
how each park is in a different stage because we have a 5-year 
goal to get that.
    So each park is on a time schedule to get the assets in, 
get the initial assessments and then get the most sophisticated 
conditions assessed. So each park will have a little bit 
different timeframe as well, and they are all on different 
schedules.
    Mr. Souder. Just so you know, I want to do this, I'm doing 
this in a fair way, the administration understands that I'm a 
Republican. I'm not hostile, I'm not interested in cutting off 
Republican's debts. Others may, but I'm not, and I'm trying to 
figure out how to address this in a realistic way.
    My son actually works for the National Park Service, is now 
in the Denver office and is working for ops, and so I 
understand there's a lot of evaluation ongoing. And there's not 
always an enthusiasm out of administration to share their 
processes and how they do this process.
    But what we need to kind of understand is what tradeoffs 
are being made, and that's what we're trying to sort through 
here. And we'll work with the regional director and with Steve 
Martin and Fran Mainella because I don't want to get into the 
situation like we get into in, quite frankly, with some other 
agencies, it's not just in the Park Service, in trying to sort 
out that so we understand, much like you said, an architect's 
estimate may be different than the carpenter's estimate.
    There are all sorts of levels here of trying to get a 
handle just like there's additional funds in the Natural 
Resource Challenge and America's historic treasures, but they 
aren't really new funds. They were funds that were taken out of 
your regular operating and backlog to create special target 
funds.
    And for us to understand that when we grade a category that 
targets a good project, what does that do to this list of 
projects you have or what does that do to raise your 
interpretation or trail maintenance? Because to some degree, as 
a former staffer I can say this, to some degree we need to 
understand.
    Mr. Reichert. I think I would be remiss to not recognize 
the effort that the rangers put forth in securing another area 
that's increased in your responsibilities as it has for all 
local law enforcement, and having visited you and some of the 
people who work for you, I know that puts additional stress and 
strain on protection of the National Parks and people who 
frequent the park system is also a major, major part of your 
job.
    And as my friend Mr. Baird said, we do have great respect 
for the work that you do and very much appreciate the effort 
with the limited resources and the great job you do, so thank 
you.
    Mr. Chairman.
    Mr. Baird. Honorable Inslee.
    Mr. Inslee. Thank you. Let me make a comment, but before 
that, I want to thank your personnel. When you talk about trail 
maintenance, how hard people work, I climbed Rainier last 
summer, and it was incredible the work people had done to try 
to keep climbers on the right trails so they don't trash all 
the meadows going up.
    You could see people that treated it like their kitchen 
with such care. It was really amazing. We really appreciate the 
personnel efforts.
    The reason I say that is the sad fact is National Parks are 
a mess. It's just a crying shame what is going on in our 
National Parks. And this isn't from hearings. This is from my 
personal observation. I go to Mesa Verde down in Colorado. It's 
a mess. Paint is peeling off everything. The hand rails are 
falling down. The trails going down to see the monuments are 
closed because they are falling off the cliff faces.
    You go to the climber's shack at Mt. Rainier National 
Parks, paint falling off all over the place. If it was a 
Holiday Inn, they would shut it down. You are losing trail 
interpretive rangers by the score at Olympic National Park, 
which I loved for my kids for an educational purpose. It's just 
a crying shame what is going on.
    And it's not because of what you are doing; it's what 
Congress is not doing, which is funding the National Parks. And 
the reason it's not doing it is it's sacrificing your budget on 
the alternative tax cuts. And I hate to be the skunk at the 
picnic party, but that's what is going on.
    Now, I just want to ask a simple question: Are we funding 
the National Parks? I will just ask you, Ms. Muldoon, if I can, 
are we funding the National Parks in a way that we can say that 
we'll hand our National Parks to our grandchildren in as good 
of condition as we had when we grew up both in a physical 
condition and with the services they provide? That's a softball 
question.
    Mr. Baird. You can see the high heat.
    Ms. Muldoon. How about those Giants? Well, how do I answer 
that? None of us are going to sit here and whine because 
compared to other public land management agencies, we are doing 
quite well.
    Mr. Inslee. Well, would you disagree with me that we are 
not cutting the mustard in funding our national parks? 
Basically, if we continue the trajectory we are on, we'll hand 
National Parks that are seriously degraded to our kids and our 
grandchildren, both in their physical and biological system and 
in the services we provide our people? Is that a fair 
statement?
    Ms. Muldoon. I think we've made some strides in the last 
couple of years. We've had increases from Congress for 
operating budgets across----
    Mr. Inslee. If we have made strides, then why are we having 
to cut rangers, seasonal rangers, in the Olympic National Park? 
Why is that? Why do constituents go to Hurricane National Park 
and other National Parks and rangers that we saw who had helped 
do crowd control and keep people off the meadows and instruct 
people on how the frogs and the trout work in the lakes, that 
kids just love seeing a person in that uniform tell them what 
is going on in the biosphere, why are those people not there if 
we are doing such a good job?
    Ms. Muldoon. We've absolutely lost purchasing power. 
There's no doubt about that. As costs have gone up, operating 
budgets haven't gone up every year. They have in the last two, 
but they don't every year. So we have lost ground over many 
years, I would have to say. Absolutely true.
    We gained some ground in the Natural Resource Challenge, I 
will say, because we do have a better handle now on our 
resources than we did 5 years ago.
    Mr. Inslee. If it came to a question of the people that you 
serve in the National Parks whether to maintain the Cascade 
National--or Cascade Pass Trail in a pristine condition or 
whether to give more tax breaks to people earning over 
$500,000, what do you think they would say.
    Ms. Muldoon. I think I should defer that to the 
superintendent.
    Mr. Inslee. I will let him off the hook. He does too good 
of a job. Let me ask you this serious question: On the 
situation regarding this proposal to seriously change the 
mission statement of the National Parks, we are very concerned 
about this because as we understand it, the proposal is it will 
change the definition of impairment to say right now you can't 
cause impairment of the National Parks.
    But as we understand it, the proposal is when you go and do 
impairment, particularly for motorized vehicles, jet skis, four 
wheelers, as long as it's, ``only temporary,'' cell phone 
towers, goodness knows what, that is a major dimunition of our 
commitment to the future generations to head in that direction. 
We are very concerned about it.
    Have you been involved in those discussions? And, if so, 
what can you tell us about it?
    Ms. Muldoon. I can tell you a little bit about that. You 
know, I have worked for the service since 1985, and during that 
time there have been two revisions of management policies. So 
it's not an extraordinary thing that management policies get 
revisited from time to time. It is extraordinary that the first 
draft of management policies goes out to the public in any 
circumstance no matter what they say because it's always kind 
of a long, deliberative process. It goes through many 
iterations.
    So we've provided comments on the first draft, every region 
has, and there's a group of Park Service professionals working 
on that now. And my understanding is that we're working toward 
a new draft. So that draft that was out there to begin with has 
already changed and will undoubtedly change again, and the 
director has made a commitment to take it out to the public and 
have a good public debate about the management policies.
    Mr. Inslee. And if you have any input in this decision, 
will you report that back for the State of Washington, the 
State of Washington believes it is a terrible idea to diminish 
the preservative mission of the National Parks, to hand back 
these most precious jewels in the Nation to our grandkids 
unsullied on a permanent basis? Would you report back to Mr. 
Hoffman to that effect?
    Ms. Muldoon. Yes, sir.
    Mr. Inslee. Thank you very much. Thank you. And by the way, 
I made a comment about the painting in the climber's shack. I 
met one of your painters back in DC. He's doing a great job. 
We've just got to give him a little more help.
    Mr. Uberuaga. I would like to comment on that, if I could. 
There is an operational funding for the day-to-day operations 
at Mt. Rainier. I want to just mention a couple things.
    Last year, in 2004, we conducted a strategic organizational 
review at Mt. Rainier to address our budget situation and 
higher operating costs. We engaged all employees in what I call 
a self-directed evaluation to develop the most effective 
organization that we can at Mt. Rainier.
    Again, looking at all the circumstances, what do we have 
control over, what can we manage at Mt. Rainier versus all the 
other things that are going on around us? We developed the 5-
year target organization that we could afford that retained 
some of the front-line staff while we abolished supervisory 
positions. We cut 3 percent a year or $275,000 a year for the 
next 5 years recognizing a total cut of 15 percent or $1.4 
million per year from then on for those 5 years and continuing 
into the out-years.
    In addition, we still have 10 permanent positions that are 
vacant. We have filled most of these positions with non-
permanent, seasonal, temporary and term positions which reduces 
our overall fixed costs, but at a price that will impact the 
park's long-term employee retention and management succession.
    Our seasonal operations, and this is paid for out of base 
operations, has decreased 49 percent over the last 10 years. 
And that's approximately 52 seasonal positions at Mt. Rainier. 
Our permanent positions are down 7 percent, about eight 
permanent positions.
    What we have done in recent years with the deferred 
maintenance program, is that we have shifted from a base funded 
to deferred maintenance, if you will, backlog project based 
funding. We have a substantial increase in our deferred 
maintenance project funding and have hired term employees and 
seasonals, and our project work force has increased by 75 
percent.
    So to speak to that, there is an impact on park operations. 
Those are some of the specifics I have. And the trend is there 
as well.
    Mr. Inslee. Thank you.
    Mr. Chair, would you allow me one more question? Thank you. 
By the way, thanks for coming here to this hearing. We really 
do appreciate your interest and leadership on this.
    There is this proposal that we could go to, this voluntary 
check-off system where you can check on your income tax to send 
money to the National Parks. We do it for the Presidential 
election right now.
    And as the tenor of my comments have indicated, I think 
we're in desperate need of funds for the National Parks, but I 
think there is some cause for concern if we tend to move in the 
direction of making National Parks kind of a volunteer system 
that no longer is a national commitment insuring statute and 
fiscal policy, but rather something that is like large bake 
sales for the PTA. We don't do bake sales for the Pentagon. We 
don't have check offs about buying, you know, airplanes.
    And I'm a little concerned that this could diminish the 
umph, if you will, at budget time to really get commitments for 
provisions.
    Mr. Baird. If I may respond.
    Mr. Inslee. You bet.
    Mr. Baird. I share that concern, but as the co-author of 
the bill, admittedly this could be fudged, but the bill 
specifically says the money that will be allocated in this 
mechanism is going to be over and above the appropriations. So 
this is meant to be an over and above resource. But now whether 
or not the appropriators would say, ``In fact, we're getting X 
amount of money through the Centennial Act, so, therefore, we 
don't have to appropriate,'' that's our job in Congress to make 
sure that doesn't happen.
    Your point is well taken. The point is for us, the reality 
on the ground and to some extent I think it's the case with fee 
demo. Many people might wish we didn't have fee demo, but ask 
any superintendent I know of, ``Could you make it without?'' 
The answer is no.
    And so I think Mr. Souder and myself, I can't speak for the 
chairman, but certainly we are cognizant of that. And our hope 
is, and I think for me the kind of testimony we've heard today 
and the kind of visual experience and personal on-the-ground 
experience of the American people, they are going to say at 
some point we actually want a mechanism to give more.
    The American people look at the parks and say we see the 
kind of impact you have been describing we have heard something 
about today. They wish they could do something. Congress hasn't 
stepped up to the plate. This is a way to empower them. I 
personally, in supporting this bill, want to share your 
concern, but say that will be part of our job to say we can't 
start then cutting the appropriations because in view of the 
Centennial Act revenue, if it comes about, would supplant that.
    Mr. Inslee. The question is how can we diminish that 
prospect that it could diminish our ability to win 
appropriations? Do you have any advice for us on that? If we do 
create this voluntary stream----
    Mr. Souder. I don't think you have characterized it 
correctly. If it was a check off, it would be over the Ways and 
Means Committee. It's not a check off. It is a bill, and the 
Resources Committee has jurisdiction because it will work 
through this way. It's much more controversial than a check 
off.
    It is a set amount of money of which people can designate 
from their own, and the Federal Government makes up the 
shortfall, that's not likely to pass in that form, but that's 
our goal to try to fight this debate.
    This hearing isn't about that, but this hearing sets that 
up. The second thing with it is that it's possibly a compromise 
where individuals, unlike the Presidential campaign where you 
can give a dollar or whatever, if a company gives $5,000, the 
Federal Government would match it might be where we would go.
    Right now it actually says the appropriation is bigger, and 
then depending on how much people give, the government's 
responsibility goes down over and above the budget. And that 
fixed amount has a baseline Federal budget with a percent on it 
and then this has to go above that. So that's how we're trying 
to address it.
    I don't think they need--I don't want to put the pressure 
on them to try to get into how we should write the legislation, 
but at the same time I think your basic question to them was 
in--do they have enough, I think, is a legitimate thing to ask 
them.
    And then, sure, they are worried that all these private 
things may replace baseline funding. I mean, that's always a 
risk. But that's really for us to figure out. So their goal is 
to get it from wherever they can get it.
    Mr. Inslee. Thank you. Thank you very much.
    Ms. Muldoon. Thank you.
    Mr. Baird. I will follow with two observations: One, you 
know, the history of the American National Parks I do not know 
it well, but I spent a little bit of time studying it. Part of 
this came about as a reference to this proposed management 
plan. Part of the reason we have our National Parks is because 
people looked at horror what had happened to Niagra Falls.
    The history of the development of our natural park system 
was Niagara Falls was a national and international treasure 
that had been developed in some of the most garish and 
outlandish ways through private enterprise trying to take 
advantage of this.
    And people from Europe particularly came over and Americans 
came over to this region and looked at that Niagara Falls and 
were astonished at how bad it looked. And there was a 
realization that we must not let this happen to other natural 
areas.
    And interestingly at the time there was a certain envy on 
American's part of European cultural history and their 
religious monuments and the great churches. And we saw in 
America, people at the time, an opportunity to do something 
that was uniquely American and that our cathedrals were the 
cathedrals of the Sequoia and the cathedrals of the canyons of 
Yosemite and the great canyons of Yellowstone and the mountains 
of Mt. Rainier.
    That was our heritage and that was vital that we preserve 
this. And as I read this new potential management plan, I think 
we would be starting a step backward and the biggest step 
backward in a long, long time toward the direction that we were 
trying to avoid when we started the National Park Service.
    And I just cannot underscore how important it is that we 
not do that. It is a sad thing to me already that we have a 
maintenance backlog. It is a sad thing that trails and 
interpretive resources are lost.
    But if we change the fundamental core mission of our 
National Parks, eternal shame on us because you don't get it 
back. You don't get it back. One thing----
    [Pause.]
    Mr. Baird. One thing I want to----
    Mr. Souder. We can give speeches, but you can't applaud for 
speeches.
    Mr. Baird. We'll disregard that. But one thing that was 
eluded to earlier, and I don't expect you to necessarily--I had 
the occasion to bump into a couple of park rangers, 
particularly the seasonal employees. I'm concerned about the 
long-term morale of our service. There are a bunch of young 
sprites out there today. I worry sincerely about this, that as 
this generation of superintendents and park workers retire, 
that the ability to fill that with career employees who see 
ambiguity, uncertainty, change in mission, change in 
responsibility, I think you run a morale risk. And we haven't 
talked about it. We have talked about the money for the ground, 
we have talked about the money for the trails, etc. I worry 
about morale, and I worry about the incoming pipeline of the 
dedicated Park Service employees.
    I open it up if you want to talk about that, we can, but I 
have talked to some folks who say, you know, this was my dream 
to be a park ranger, and I have wondered now if I'm going to 
have to abandon that dream.
    Mr. Souder. What I would like to do is go to the second 
panel. I was going to make a similar request of each of you. 
Mr. Uberuaga referred to this career track, that would you 
talk--if you could give us a written response to this direct 
question for the record that we can have as to what you think 
the impact is on recruitment of young people in the Park 
Service in addition to the morale of the Park Service, is there 
a career track.
    If we can only have seniors in, and we all meet young 
people who maybe give 7 to 10 years on temporary status----
    Mr. Baird. Exactly.
    Mr. Souder [continuing]. What is happening inside the 
service? And is this going to impact the great people with 
double degrees? Is this going to impact these people's patience 
to do that as they try to figure out how to cover health care?
    Just if you can, just spring forward as straightforward as 
you can, this is what I see happening as opposed to 
editorializing off of it, which could get into all kinds of 
discussions. But this is under oath.
    Mr. Baird. And particularly, if I may, Mr. Chair, is the 
seasonal issue and the issue you raised regarding health care 
because the seasonals who are not employed long enough to 
receive health care? I think this raises particular challenges, 
if you can talk about that in your comments.
    Mr. Souder. And I'm going to give some other written 
questions so we can match up the different hearings and do that 
to some degree through the park office, through the regional 
office, but particularly in this area of the upper Northwest, 
could you give us how many permanent and seasonal staff the 
region had 4 years ago as opposed to currently and any comments 
you want to add to that.
    We also have a question on the maintenance backlog and also 
how the recreation fee is working in relationship to this. And 
also if you could give me an idea, this is an area of huge 
natural resource parks, but you also have lots of others that 
you can refer to such as the Klondike headquarters.
    And some of what is happening here is we are able to cover 
the bigger parks better, but some of the small ones may be 
getting lost in the system, but if you can give us some 
indication of whether that's occurring as well.
    And I want to say for the record, we're going to have 
political differences, and Jay has referred back to the 
question a couple times, I don't favor raising taxes. I favor 
making some adjustments, and I don't believe they will solve 
the problem. I think we can handle a legitimate disagreement 
over that.
    But from our perspective as the revenues have gone up, the 
expenditures have soared. And most of it is entitlement 
spending, and we have a huge challenge.
    And I'm one who believes that we've gone too far in some of 
the Park Service reductions. But it isn't going to be like the 
old days. There aren't as many funds to restore the buildings 
there. We are going to have to find more ways to be creative, 
more self service, creative ways with the Internet.
    Our school teachers around the country have a great 
educational, cultural, scientific resource in the United 
States, most of which probably have more actual original 
artwork than our national art museums inside the system. But we 
have to figure out different ways to do this because the 
country is changing. What we have are the greatest resources we 
have in America, and we can't let them get denigrated for the 
next generations based on the challenges that we have.
    And we'll try to work through our differences of how to do 
that. But first we have to define what we have, what is 
happening to it and how best to address this and raise the 
awareness of Congress. Thank you for participating in that this 
morning.
    If the second panel can start to come forward, we'll take a 
brief recess to give the stenographer a break.
    [Recess.]
    Mr. Souder. The subcommittee will come back to order. And 
as you heard from the first panel, each witness has to be sworn 
in. So if you will stand and raise your right hands.
    [Witnesses sworn.]
    Mr. Souder. Let the record show that each of the witnesses 
have responded in the affirmative. Mr. J. Paul Malmberg is here 
representing--he's a regional director, Washington State Parks, 
Southwest Region. He's representing the Oregon and Washington 
State Parks. And we'll get his testimony.
    Let's start with you.

 STATEMENTS OF J. PAUL MALMBERG, REGIONAL DIRECTOR, WASHINGTON 
STATE PARKS, SOUTHWEST REGION; SALLY JEWELL, TRUSTEE, NATIONAL 
PARKS CONSERVATION ASSOCIATION; REX DERR, DIRECTOR, WASHINGTON 
  STATE PARKS AND RECREATION COMMISSION; TIM WOOD, DIRECTOR, 
 OREGON STATE PARKS; RUSS DICKENSON, FORMER DIRECTOR, NATIONAL 
 PARK SERVICE; AND ROD FLECK, CITY ATTORNEY/PLANNER, FORKS, WA

                 STATEMENT OF J. PAUL MALMBERG

    Mr. Malmberg. Thank you. Chairman Souder, members of the 
committee, my name is Paul Malmberg. I'm regional director for 
the Southwest Region, Washington State Parks and Recreation 
Commission. Thank you for the opportunity to appear before you 
today. I am pleased to be able to testify on behalf of both 
Washington State Parks and Oregon State Parks. We like to think 
that our joint testimony is an example of the cooperative, 
seamless two-State park system, as taught by the National Park 
Service.
    We are pleased today to be able to give you an overview of 
some of Washington's major Centennial 2013 goals and to 
describe our involvement with a variety of Federal, State and 
non-profit organizations and partnerships.
    Washington State's Parks System is 93 years old. 
Established in 1913, we are the Nation's second oldest State 
parks system. In 7 years, our system of 120 parks and 260,000 
acres will be 100 years old. With our Centennial in mind, the 
seven member State Parks Commission created our Centennial 2013 
plan. This plan is a framework to position and guide the agency 
as it enters the next 100 years. It is a bold plan that focuses 
on renewed commitment to traditional roles, pushing the 
envelope for future plans and actively connecting with our most 
important resource: Engaged communities.
    The Centennial 2013 Plan has three parts. First, six 
renewed commitments to our major activities: To stewardship, 
the protection and preservation of natural historical and 
cultural resources; to quality, the added value of 
participation in our parks; to our employees, to equip them 
with a strong customer service ethic; to partnerships, at all 
levels to leverage scarce resources beyond status quo to 
improve the park experience; and to its stable funding source.
    The second feature of our plan is leaving a legacy. This is 
the plan's bold part. It is not only business as usual or the 
status quo, it is asking for $100 million--yes, $100 million--
as an up-front investment to kick start the first phase of our 
plan and leave a legacy for the next generation of park users. 
And we're asking partners to buy into this legacy with money, 
muscle and organizational resources.
    The third leg of our Centennial Plan is 100 connections. 
This part is the community-based part; the part where local 
citizens make local investments to improve local State parks. 
This phase is a natural channel for the passion people have for 
parks.
    Now I'd like to go a little more into partnerships, that 
key feature in the 2013 plan that some of our people refer to 
as ``park-nerships.'' Partnerships are a key element of 
Centennial 2013, in all three areas, commitment, legacy and 100 
connections. In building on existing and forming new 
partnerships, we realize the value of leverage, the extra boost 
that individual, group and governmental linkages can give our 
State parks.
    Partnerships are the win/win feature of our plan. The 
partners win by giving to the communities, by succeeding in 
business by doing good. Of course, parks win, too. In an era of 
dwindling resources, we can tap into the muscle that makes our 
country great: People power. These benefits from partners are 
not only tangible bricks and mortar or interpretive shows, they 
are goodwill and the seal of public approval of well-invested 
tax dollars.
    Washington State Parks' view of partnership is not only 
people power. The view encompasses more--remember, we're 
thinking boldly here. So our plan will work on attracting 
corporate sponsorships, foundation support from Boeing, 
Starbuck's, Seattle's Bullitt Foundation. We are trying for 
major investments that make a difference.
    Now that you have an idea of what we think partnerships 
are, let me outline a few of our most important ones to date. 
The first is our work with the National Park Service, Oregon 
State Parks and other local jurisdictions at the Lewis and 
Clark National and State Historic Park on both sides of the 
Columbia River as it flows into the Pacific Ocean. Working 
collaboratively with the National Park Service as a marketing 
and management partner, using the National Park Service Web 
site, Oregon State Parks, through a number of State parks, 
including Fort Stevens, and Washington State Parks, through a 
number of State parks, including Cape Disappointment, offer a 
variety of cultural, historical and natural park experience in 
a seamless delivery system.
    A second collaboration is referred to as WORP, or 
Washington Oregon Recreation Pass, where both Oregon and 
Washington State Parks teamed up with the National Park 
Service, the U.S. Forest Service, the U.S. Fish and Wildlife 
Service, the Bureau of Land Management and the U.S. Army Corps 
of Engineers to pilot a ``one pass fits all'' endeavor. 
Visitors can use this one pass to enter national parks in the 
region, park at forest service trailheads, use BLM lands and 
certain Corps of Engineers parks, and park for free in selected 
Oregon and Washington State parks. This one-pass experiment is 
a fine example of strong customer service and the seamless park 
system we all aspire to.
    A third example of symbiotic partnerships is the Grand 
Coulee National Recreation Area. There in Central Washington, 
the Federal land management agencies, the National Park Service 
and Washington State Parks work together for a top-notch Ice 
Age Floods interpretive experience. The floods occurred 12,000 
years ago and carved up dramatic landscapes in a four-State 
area.
    Another example of a successful partnership is the 
Northwest Discovery Water Trail that runs from Canoe Camp on 
the Clearwater River in Idaho, down the Snake and Columbia 
Rivers to Bonneville Dam in the Columbia Gorge National Scenic 
Area, providing kayak, canoe and boating experiences to outdoor 
enthusiasts from Washington, Oregon, Idaho and visitors from 
all over the country. The trail is a collaboration of 33 
different agencies and jurisdictions. As we like to say, the 
Northwest Discovery Water Trail is the proof of the partnership 
pudding.
    In addition to the Northwest Discovery Trail, the Lewis & 
Clark National and State Historic Park, and the Washington 
Oregon Recreation Pass mentioned above, Oregon State Parks 
provides another fine partnership example in their cooperative 
effort with the National Park Service in providing the Fort-to-
Sea Trail from Fort Clatsop to the Pacific. It's an example of 
a joint park/trail management borne through partnerships.
    There are other examples in operating public information 
officers, coastal management, long-distance rails-to-trails 
management and coordination of training for cultural/historical 
resource interpretation they portend well for future endeavors 
that leverage the resources at all levels--Federal, State, and 
local, but time does not permit a detailed description.
    As concluding remarks, on behalf of Washington and Oregon, 
I cannot emphasize this final point enough: As Federal 
resources dwindle or are directed toward recent reconstruction 
efforts, these Federal, State, private and non-profit 
partnerships become more and more crucial to our joint mission. 
We view our collaborative past as a great asset and maybe even 
a ``best-kept secret,'' and we will continue to view our joint 
future as equally valuable as a key 21st century asset 
necessary for the success in our mutual, collaborative park-
based missions.
    Thank you on behalf of the Oregon State Parks and 
Washington State Parks. I hope these remarks will help you in 
your future deliberations. We wish you all well.
    Mr. Souder. Thank you.
    [The prepared statement of Mr. Malmberg follows:]

    [GRAPHIC] [TIFF OMITTED] T7380.008
    
    [GRAPHIC] [TIFF OMITTED] T7380.009
    
    [GRAPHIC] [TIFF OMITTED] T7380.010
    
    Mr. Souder. Our next witness is Sally Jewell, the CEO of 
REI, I think the favorite store both online and directly of my 
two sons.

                   STATEMENT OF SALLY JEWELL

    Ms. Jewell. Great. Then I don't have to explain REI. Thank 
you very much, Mr. Chairman. I especially thank you for 
traveling out here to meet in our neck of the woods. I think 
the view you have behind me is indicative of the kinds of 
things that our citizens like to do in terms of protecting open 
spaces and beautiful areas amidst growing urbanizing areas. And 
we're in, I think, Representative Reichert's district, and you 
know what a struggle that is. So thank you. I thank 
Representatives Inslee and Baird, as well as Reichert, for 
being here as well.
    REI is--it's great to know it's your sons' favorite store. 
We are now in 25 States. We'll have 82 stores by the end of the 
year, and we are hopeful we'll cross $1 billion in sales. So it 
is not a small business. We employ 7,000 taxpayers in those 25 
States.
    But that's not why I'm here today. I'm here really as a 
trustee for the National Parks Conservation Association [NPCA], 
which I will be talking about a little bit.
    Unlike the individuals on the panel before us, my salary is 
not paid by the Federal Government, and I am free to speak as a 
citizen. And so I will start by answering Representative 
Inslee's question, which is we are not leaving our parks in the 
same condition as we inherited them from our parents. And I'm 
preaching to the choir here. The four of you know that we have 
challenges that we have to solve.
    So one of the functions of the NPCA, which was formed in 
1919, I believe the same year the National Park Service was 
founded, was to be able to speak out like I can speak out as a 
private citizen in favor of protecting the National Parks for 
future generations unencumbered and in the condition that we 
inherited them. That is the role of the NPCA. We have over 
300,000 members and people sign up voluntarily to support the 
organizations through the contributions to do exactly this, 
which is to advocate for not just the natural resources we've 
heard so much about, but the historical and cultural heritage 
of these wonderful places.
    I'm also a founding board member of the Mountains to Sound 
Greenway, which is in primarily Representative Reichert's 
district and basically runs from the mountains to the sound 
along I-90. We're sitting in it now. And I'm on the board of 
the University of Washington Board of Regents and also served 
on the State of Washington Governor's Competitiveness Council 
looking at what we need to do within this State to remain 
competitive.
    Before REI, I have 20 years in the banking industry so I 
have kind of a varied background and know the complexities that 
you must face every day in trying to figure out how to deal 
with limited resources to do good things.
    I'm an immigrant to this country. One of my first memories 
coming here with my family in 1959 was of hiking the Carbon 
River, an amazing area. Later on as a child, I did a 100-mile 
trek across the Olympic Mountains coming out in Dosewallips, 
which actually I tried to visit yesterday, but the road was 
washed out, I guess it has been for a number of years on U.S. 
Forest Service land.
    But we live in an amazing place here, and there are amazing 
places like this across the country. As a child growing up, my 
family went to many National Parks mostly in the west, and we 
always went to the ranger chats. And seeing rangers dressed 
very similarly, actually a little bit dressed down from our 
superintendents here today, but still they had the uniform of 
the National Park Service, and that meant a lot to me as a 
child, as I'm sure it did to a number of you.
    It came a little closer to home this year. My son is 
actually a volunteer climbing ranger at Mt. Rainier National 
Park. He hasn't run into Dave Uberuaga very much. He's down the 
totem pole quite a bit, actually quite a bit of time spent 
volunteering on the trails and swinging a pick ax and other 
things.
    But I've had, besides a lot of Rainier dust to clear out 
about every week when he brings his pile of dirty laundry home, 
I've had a lot of opportunity to talk to him about what it's 
like to work in the parks. And there is a shift. There is a 
shift away from interpretive rangers. There are no where near 
as many as there once were. The NPCA put out a report called 
Endangered Rangers, and I know you are all familiar with that. 
Representative Dicks brought it up at I think it was an 
Interior Appropriations Subcommittee or Appropriations 
Committee, raising the issue of the reduction in the number of 
rangers available to do interpretive programs.
    My husband and I a year and a half ago went to Yosemite. Of 
course, we went to all the chats that we could get to, and none 
of them were put on by rangers. They were all put on by 
contractors. And it's just not the same.
    So I know that when I think about the experiences I had as 
a child compared to the experiences my children have right now, 
it is different.
    My son's roommate has been a ranger at Olympic National 
Park and now Rainier National Park, and he is an interpretive 
ranger, back country ranger, but he's taking the law 
enforcement classes that now one needs to do to move ahead in 
the park. So the shift from interpretation toward law 
enforcement is also very true in the parks as they work on 
security issues, not the things, perhaps, that we traditionally 
associate with rangers, although, that is an important 
component.
    These park rangers inspired in me a love of nature, respect 
for culture and also through a lot of our historical parks the 
sacrifices that our forbearers made in shaping the country. So 
I hope we can get back to that and not just have them babysat 
until somebody gets out to help encourage future generations to 
appreciate what we have.
    Funding challenges are increasingly evident in the parks 
that I visit. I reference those a little bit. I think that you 
all are aware of it, and I will try to not repeat the testimony 
I just heard, so I will scale back on a fair amount of it. I do 
have two tables that are in my written testimony. One talks 
about the base operating budget of each of the 14 national park 
sites in Washington and Oregon and where they were in 2004, 
2005 and 2006 and what the increases in those budgets were, and 
in addition there's a table on the economic impacts of the 
National Park System in the northwest, and they are 
substantial.
    There is chronic underfunding in our National Parks. You 
are aware of it. Chairman Souder and Representative Baird have 
co-sponsored the National Parks Centennial Act. We applaud 
that. The NPCA is fully in support of that, and we really 
appreciate your effort to move that forward.
    This is not a Republican or a Democratic issue. This is an 
American problem. It spans every part of the political 
spectrum. And I just appreciate the courage that you all have 
to sign onto that bill and to try and move it forward.
    Business plans that were developed in over 70 National 
Parks across the Nation show that on average parks operate with 
only two thirds of the funding that they need. That adds up to 
a system-wide deficit of $600 million annually, so it's no 
surprise that the annual operation budgets have not kept pace 
with the need. And we heard about that from the individuals a 
few minutes ago.
    Increased security demands, as I mentioned, are an issue. 
The years following September 11th, a number of the resources 
from our National Parks here have been sent to help protect 
places like the Golden Gate Bridge and Statue of Liberty. 
That's all coming out of the local budgets, and they are having 
to absorb these unbudgeted costs.
    Chairman Souder mentioned in his opening remarks the cost 
of living adjustments that are mandated, but when the budgets 
don't keep up with those cost of living adjustments, it means 
you scale back a number of people, and that's exactly what is 
happening.
    We've also heard about storm damage. I think that's true in 
many National Parks, not just the ones here. These are wild and 
wooly places, and they are costly to maintain.
    I won't even get into oil prices because that's going to 
impact every part of our economy, but it certainly impacts the 
National Parks with all of the vehicles they have to maintain 
to run it.
    When we look at the Pacific Northwest budgets at a glance, 
only 2 of the 14 park sites in the Northwest are slated for 
base increases which are above the rate of inflation, and 
that's all identified in that table that I mentioned in the 
upcoming 2006 budgets. On average, the parks are going to get 
an increase of 2.6 percent compared to inflation of 3.1 
percent--(Telephone interruption.) That's an obnoxious ring.
    But because inflation is higher than what the Parks' 
budgets are, we are continuing to have the same struggles. I do 
want to recognize, however, that in 2005, there was a 
significant increase, and we really appreciate that, and you 
can see that in the tables.
    It's going to take a sustained effort to increase the 
annual funding. It's not going to be annual appropriations 
alone, and it's going to require public/private partnerships. 
We heard a little bit about some partnerships in the State 
parks, and we'll talk in a minute about something REI is doing 
and a number of folks like us, but it's not the only solution.
    So let me talk just briefly and even more briefly than I 
intended to about two of our premiere Pacific Northwest area 
parks, and that's Mt. Rainier and Olympic.
    At Mt. Rainier National Park, it's an active volcano. REI's 
distribution center, all the stuff that your sons order through 
mail order, comes from a distribution center in Sumner, WA. 
It's on the volcano evacuation route to Mt. Rainier. There are 
actually signs that say that Mt. Rainier blows this way.
    There is no full-time volcanologist on staff at Mt. Rainier 
National Park. It's the kind of thing we think they should have 
given the uniqueness of that particular asset.
    We heard from Dave Uberuaga about the deferred maintenance. 
I had in excess of $100 million. He said $168 a few minutes 
ago. Mt. Rainier has better information than the other parks. 
We talked about that. The strategic operational review in 2004 
found that the flat budgets, higher operating costs and the 
increased work loads were factors stressing the park, and they 
went through that very effectively.
    If you want to just cut to the quick, in constant dollars, 
inflation adjusted, the Parks 2004 budget of $9 and a quarter 
million have been flat lined since the last increase at 1997. 
And that is, I think, pretty indicative of other parks as well.
    We appreciate Representative Reichert getting out there. I 
thought you were operating a chainsaw. I guess not. But at 
least that's what was reported.
    Mr. Reichert. That's a little scary.
    Ms. Jewell. But for those of us who do get out and 
volunteer in the Parks, you get a real sense of just how hard 
the work is to maintain these things, how critical the 
volunteers are, but also how critical good staff is to be able 
to get the job done effectively.
    Olympic National Parks: a million acres, 65 miles of 
shoreline. It's an amazing, amazing park. Part of the work of 
the NPCA is to do reports called the State of the Parks. They 
are working their way around the country, but they have done 
Olympic. And they put in place a rating scale about how 
effectively the park is able to support and steward its 
resources, natural, cultural, historic.
    Unfortunately, Olympic National Park rated a poor 59 out of 
100 on that score card, and that is not at all because the 
staff is not running like squirrels in a cage doing as much as 
they can. And we heard from Bill, and the staff does incredible 
work out there. But it's just because there aren't enough of 
them.
    The health of Olympic National Park is threatened by an 
annual shortfall of about $6 million just in the base budget 
funding. So we talked about Elwha dam. This is just the basic 
operations.
    This was a shocking statistic to me and perhaps improved a 
little bit, Bill, in 2005, but the number of seasonal rangers 
was reduced from 130 in 2001, to only 25 in 2004. The seasonal 
rangers are the backbone of these programs. Those are the 
people you run into in the back country. Those are the people 
you rely on to answer your question or to call for help if you 
have an injury.
    And 2 years ago, in addition, funding shortfalls threatened 
to close the visitors center in Forks, and I suspect Rod Fleck 
will be talking a little bit about that. But these are--it's 
not only critical for protecting the resources, it's an engine 
of an economy that otherwise has survived on timber harvest and 
is changing, you know, for the good, I think, in large part 
because of Olympic National Park. It won't be if we can't 
maintain those resources.
    NPCA recently collected 5,000 comment cards at various 
parks from park visitors. This is just this past summer. And I 
thought I was going to have a box of them. I guess not----
    Mr. Souder. It's there.
    Ms. Jewell. Oh, it's there. All right. I can't see it, but 
there's a box. I'm told there's a box; 5,000 personalized 
comments from park visitors, and, you know, not unlike the four 
of you who expressed your comments earlier, they're very 
engaged in National Park issues. They care a lot about it, and 
they expressed a great deal of concern for the parks.
    I'm just going to read a few of the quotes. David of 
Kirkland, WA, ``Along with the wilderness areas, the National 
Parks are all we have left. Future generations will judge our 
efforts in whether we sit around or preserve these areas.''
    From Jonathan of Vancouver, WA. Gee, it just happens to be 
in your district. What do you know? ``The National Parks 
provide historical information. They also promote tourism which 
helps stimulate the local economies.''
    And from Joseph and Margaret Miller from right here in 
Bellevue, ``We worked from the late 1950's to 1968 for the 
establishment of North Cascades National Park. Upon our 
retirement in 1970, we worked as unpaid volunteer biological 
researchers for the National Park Service. We feel that the 
current lack of funding is undoing much of this work.''
    So that is very indicative of the comments that were in the 
5,000 folks that chose to participate in supporting the kinds 
of things that you know.
    I want to talk just a minute about public private/
partnerships and specifically REI just by way of example, but 
there are many other examples. Just as increased public funding 
is critical to the health of natural parks, private dollars 
through partnerships also play a critical role. We have done a 
number of things with the Park Service just to indicate to you 
some of the examples out there.
    Last year, REI donated $100,000 to support the National 
Parks Volunteerism and Enhancement Program, and that was 
through the National Park Foundation. Specifically we took 130 
volunteer projects and narrowed them down to 22 that we could 
fund and then provided funding to support the volunteer efforts 
to do that. So bringing those folks into the park to do good 
work that you heard our superintendents talk about a little bit 
ago.
    Over the last few years, we supported sales of the National 
Park Pass in our stores, and in addition we did a shirt 
promotion with all of our employees that had a ranger on the 
front, you know, raising awareness of the National Parks and 
the National Parks Pass, the work of the foundation and 
supporting parks overall.
    In addition, we did custom artwork for several of the 
National Parks and with the proceeds going to support those 
parks.
    We've also supported something called Japan Volunteer in 
the Parks Program at Mt. Rainier. The country of Japan provides 
volunteer students to come over and work in our National Parks 
every year, something that maybe we could be doing as well.
    The public places a really high value on the National 
Parks, and while REI is a private organization and other 
philanthropies are more than willing to partner with the Park 
Service, it has to be clear that the role of philanthropists 
and businesses like ours should provide the margin of 
excellence, not the margin of survival. We should provide the 
margin of excellence, not the margin of survival.
    When the private sector sees the funding that it's doing 
supplanting the resources that we should be providing as a 
country, you can bet that firms are going to retreat and say, 
``Wait a minute. This isn't right.'' And I think that's so 
critical. It's just too big for any philanthropist or any 
private individual or company to do. We have to work hand in 
hand.
    I have talked briefly about the benefits, economic 
benefits. Just to quote a few statistics, according to the 
National Park Service, overall in the country, the National 
Parks generate about $11 billion in economic impacts each year. 
That's 226,000 tourism-related jobs in local economies, as well 
as lots of positive economic impacts on those economies.
    I gave you the table. More than 8 million tourists visited 
the National Parks in the State of Washington and Oregon in 
2003. They spent over $250 million, created over 6,700 jobs and 
generated over $100 million in income to our communities, and I 
suspect Rod is going to talk a little bit about his own 
community and its impact.
    So in conclusion, the work you are doing is good work. It's 
important work. We have to fund these parks. We have to find a 
way to do it.
    I know that this is a time of sadness in our country. I 
know that there will be many resources that are directed toward 
the hurricane-damaged areas. It's just like private 
philanthropy, we can't allow other things, other needs in our 
country, to go unmet as we respond to this catastrophe. I 
really think we need to do both. And I so applaud the work you 
are doing in raising awareness with the National Parks 
Centennial Act and having these hearings out here and listening 
to how important these treasured resources are for all of us. 
Thank you very much.
    Mr. Souder. Thank you.
    [The prepared statement of Ms. Jewell follows:]

    [GRAPHIC] [TIFF OMITTED] T7380.011
    
    [GRAPHIC] [TIFF OMITTED] T7380.012
    
    [GRAPHIC] [TIFF OMITTED] T7380.013
    
    [GRAPHIC] [TIFF OMITTED] T7380.014
    
    [GRAPHIC] [TIFF OMITTED] T7380.015
    
    [GRAPHIC] [TIFF OMITTED] T7380.016
    
    [GRAPHIC] [TIFF OMITTED] T7380.017
    
    [GRAPHIC] [TIFF OMITTED] T7380.018
    
    [GRAPHIC] [TIFF OMITTED] T7380.019
    
    [GRAPHIC] [TIFF OMITTED] T7380.020
    
    [GRAPHIC] [TIFF OMITTED] T7380.021
    
    Mr. Souder. Our next witness is Mr. Russ Dickenson, a 
former director of the National Park Service. Roger Kennedy was 
at our last hearing up in Boston, and we appreciate you giving 
us kind of the oversight of having been in the system and your 
willingness to speak out today.

               STATEMENT OF RUSSELL E. DICKENSON

    Mr. Dickenson. Thank you, Mr. Chairman, members of the 
committee. My name is Russ Dickenson. I'm retired from the 
National Park Service. I live in Bellevue, WA. And I might say 
at my age and with the amount of experience I've had, I'm 
history. After World War II service as a Marine, I entered the 
National Park Service in 1946 as a park ranger at Grand Canyon. 
During my 39 years with NPS, I held many different positions in 
parks coast to coast as a ranger, chief ranger, superintendent, 
regional director of two regions, one of which was the Pacific 
Northwest, deputy director of the service under Director No. 7 
and 8 and became the 11th Director of the service for 5 years 
in 1980 to 1985. As director, I served under two Presidents, 
President Carter and Reagan.
    Following my retirement, I served 4 years on the Secretary 
of Interior's National Park System Advisory Board and 15 years 
as the board member of Eastern National, which is a nonprofit 
operating association which supports the Eastern National park 
areas and their interpretive and educational projects.
    I've been able to keep reasonably abreast of NPS issues and 
programs. And one of my fundamental beliefs is that the 
National Parks and historic areas have a special place in our 
culture and in the hearts and minds of the American people. So 
it has been really disappointing in recent years that an 
adequate level of support from the Department and Congress has 
not always been forthcoming.
    When I was director, we had a park restoration and 
improvement program which devoted $1 billion over a 5-year 
period to park resources and facilities. It was a magic time. 
In the 20 years since I've left, the backlog and maintenance 
and needed improvements have gradually increased I have been 
told to an estimated range of $4\1/2\ billion to $9 billion, 
and the available operational dollars are also inadequate.
    Many visitors are not having a fully satisfactory park 
visit. Fewer rangers, fewer interpreters, fewer information 
personnel at visitor centers and reduced hours, trail walks 
fewer, fewer camp grounds, etc.
    An adequate operating budget at the park level at each park 
is critical to fixing the problem. The Park Service has some of 
the most talented and dedicated people you would hope to find 
in any institution or profession, but they need help. The 
capacity of park superintendents, rangers and staff to do the 
job that Congress and the American people expect is being 
steadily eroded and the morale along with it.
    There is not a park in the Pacific Northwest that isn't 
being forced to leave important jobs undone or staff positions 
unfilled because of insufficient operating income. Despite the 
fiscal year 2006 increase in $50 million in base funding for 
total NPS, 13 of the 15 park units in the Pacific Northwest 
will receive funding that fails to keep up with inflation.
    The work Congressman Dicks and others of you have done to 
direct additional resources to Park Service operations is 
admirable and sorely needed, but I believe we are at another 
point in our national history when we must reinvest in our 
National Park System. We did it during the 1930's depression. 
Remember the CCC era and the magnificent improvements in 
National Parks that occurred, again after World War II during 
the Eisenhower Mission 66 program, and I was very much a part 
of that, and it gave a boost that we can see to this day.
    It is time to consider a reinvestment program again. 
Anything less simply won't get the job done. The National Parks 
need the kind of leadership and attention that you, Mr. 
Chairman, and each Member of Congress may help provide.
    I hope that my 10-year-old great grandson with his 
developing appreciation of the natural world and the National 
Parks will look back on this time as the turning point when our 
Nation, despite all our problems foreign and domestic, chose to 
save and enhance these wonderful world-renowned natural and 
historical areas keeping these areas unspoiled for generations 
to come.
    Thank you very much.
    Mr. Souder. Thank you.
    [The prepared statement of Mr. Dickenson follows:]

    [GRAPHIC] [TIFF OMITTED] T7380.022
    
    [GRAPHIC] [TIFF OMITTED] T7380.023
    
    Mr. Baird. Mr. Chairman, I need to ask your indulgence. I 
have to catch a flight back to the other Washington. I would 
like to just thank the panelists. I regret that I can't be here 
for any of the questioning, but thank you for your service. And 
thanks again to the folks who have joined us today.
    And thank you again, Mr. Chairman, for hosting this and to 
my colleagues for their work. Thank you. I apologize I have to 
step out.
    Mr. Souder. Thank you.
    Our next witness today is Rod Fleck from Forks, WA, talking 
about the community impacts. I appreciate you being here today.

                 STATEMENT OF WILLIAM R. FLECK

    Mr. Fleck. Thank you, Mr. Chairman, members of the 
subcommittee. My name is Rod Fleck. I'm the city attorney and 
planner for Forks, WA. Mayor Reed, I'm standing in for her. She 
extends her regrets. She's at a 50th class reunion. She will 
make it very clear for me to point out it's for her husband, 
not her.
    And I apologize to Sally because the phone that went off. I 
believe it is my 4-year-old telling me about her first day at 
preschool.
    So it's a great honor, and I appreciate the honor to 
testify. I have two records in my written testimony that I 
submit for you in your consideration. I will refer to those a 
little bit later.
    Forks is a wonderful community. It's in a remarkable State. 
And I will say in one of the longest footnotes you probably 
have ever seen, I give you my love for this State and all the 
wonders in it. We are a small rural city out on the Olympic 
peninsula about 3 hours and a ferry ride away from here. It's 
3,200 people there that call it home. We are the hub in a 2,000 
square mile area with 12,000 people. We're rural. We are 
remote. We are unique for our salmon, our salamanders, our 
forests and our beaches. Oh, yeah, we get a lot of rain, so 
much so that we measure it in feet.
    And as a rural community, we understand the functions of 
our various land managers. Some lands are for timber production 
and others are for recreation. And I'm here to talk about the 
recreation and its role. Tourism is a conscious part of our 
diverse location efforts and our local economy.
    The Olympic National Park sites that we have around us 
within about 20 minutes include lakes, mountains, beaches and 
rivers. They're huge draws and have huge economic impact.
    On the peninsula alone, the estimates are that there's 
about $91 million spent by tourists visiting our region every 
year; $41 million generates jobs and personal income to the 
families of my neighbors. Diane Schostak, our Forks Chamber of 
Commerce director, I once asked her, ``What is the estimate of 
the tourism segment into our sector of employment?'' She goes, 
``I would say, minimum, it's 1 out of 10, and it's probably a 
lot higher than that,'' in just our little town of Forks.
    Up until 2004, though, we took our parks for granted, and 
we weren't alone. They are always there. And we then started 
hearing of service local adjustments that would include changes 
to the Forks Visitor Center. It's a unique relationship that 
the Park and the Forest Service have and a transit center that 
was paid for by Federal dollars, and the suggestion was that it 
was going to have to be closed.
    Well, that caught our attention. We are known to be very 
vocal in our little community. And we started working with the 
National Park Conservation Association and others to say we're 
not sure we should have our superintendents having to make 
these decisions about what do I fund here because I can't 
absorb the cost of increases in fuel, health care, things like 
that.
    We started to learn a lot about the Park and the Park 
Service. We also in 2004 watched something that I think every 
American deserves to be proud of, and that was the bipartisan 
level of leadership by you, Mr. Chairman, your colleague 
Representative Baird, Congressman Dicks, Representative Taylor, 
Representative Inslee and Representative Larsen and others to 
work across the aisle to find solutions in the leadership and 
funding. We're extremely grateful in our little community. We 
don't get to tell you guys that often. You probably hear us 
complain about things. But we are extremely grateful for that.
    But we also learned that NPS has challenges. Now, it is not 
easy for a citizen to travel the park system, the park service. 
I will say I am a pretty good researcher in a lot of odd little 
things. The Park Service is difficult to figure out and ferret 
information out about.
    What I can say is that while the budgets remained 
relatively stable in Olympic National Park in fiscal year 2001, 
there are 202 FTE billed there. In fiscal year 2004, there are 
177 billed there. They did get additional visitors' support, 
and Superintendent Laitner uses that very, very wisely. There 
is no waste. There is no over excess in our National Park 
Service when it comes to these people's hands in the field. 
They can take a penny and get you probably 2 or 3 cents on 
whatever you give them in time and dedication.
    But those changes and those shifts in the FTE impact our 
infrastructures and our visitors. Visitors in their parks 
expect what I expect in classrooms, smaller tour sizes, safe 
and clean structures and open facilities, yet the budgets are 
not meeting all those costs. Superintendent Laitner and others 
are having to triage maintenance between trails, buildings, 
roads, camp sites, sometimes just making sure the septic system 
at the Hoh is functional that week. They are also seeing 
overloaded staff, and those reductions are having impact on 
everything from law enforcement to interpretive services.
    In that role, you see a reliance on volunteers. I've seen 
it in the last year. I've been traveling and asking people at 
parks from Chilcote, OH, to Spotsylvania to Gettysburg to the 
Olympics. Volunteers are great resources, but we need to 
caution the NPS to use these wonderful folks to supplement, not 
supplant trained staff, especially the law enforcement folks. I 
don't want to criticize volunteers because they are a godsend. 
They should be adequately noted and given the recognition they 
deserve, and in my written testimony I talk about a couple 
examples where that's not the case. I appreciate REI making the 
effort to overcome that.
    In addition, sponsorship should augment but not supplant 
National Park Service operations and maintenance and avoid 
costly shifts to local governments and entities. That is one of 
the questions that came up, could the city of Forks maybe 
absorb some of these costs or help us cost share this. With all 
due respect, sir, my city can just get by. We don't have a 
luxury of doing that. We would love to. We just don't have that 
ability. There's a lot of other small little communities like 
that.
    In the letter I provided from the 20 chambers of commerce 
around the Northwest, there are many little communities just 
like Forks from Sedro-Woolley to Concrete and others that just 
don't have those resources, even though we rely upon the parks 
for its economic development and stability, 8 million visitors 
in 1 year generating hundreds of millions of dollars in revenue 
for our little communities.
    The other thing I would like to talk about real quickly as 
an example is the Hoh Visitors Center. It's a neat little 
place. The staff there are the hardest working people I have 
ever met in my life. And to be candid, it's a Mission 66 
vintage visitors center. It was built during the Kennedy 
administration. And yes, Superintendent, I can say that it's 
older than me. It was built for about 15,000 to 20,000 visitors 
a year. Today it receives 260,000 people a year. In August 
alone, it received 70,000 people a year.
    I don't want to get into septic engineering and all those 
things, but I can tell you that is a problem at the very base 
level in the park there.
    And it's just not built for the use it gets. I was up there 
with a person a week and a half ago, and we walked in with 15 
people, and it was a crowded facility. I think it's smaller 
than the open area we're in right now, including the offices, 
for 260,000 people, 70,000 people in August. Start doing the 
math by hour, and you can start to see you become very close 
friends with a lot of people.
    It also doesn't have some of the things that I have seen in 
other visitor centers, a lecture area, a movie area, things 
like that. I'm not saying it's bad, it just needs some 
assistance. They are keeping it in wonderful shape. Truly 140 
some inches of rain can do damage to a lot of buildings, you 
can only imagine, and these folks have kept that place up. It 
is a remarkable effort they undertake.
    Our community, our city, adopted a resolution which I have 
provided you that supports the National Park Centennial Act. We 
appreciate your leadership on that and Representative Baird. We 
think that is the way to have the citizens participate and say 
we care about this. In return, in our dollars we gain back, we 
would like to take some of that and give it back and say deal 
with this.
    From preserving artifacts at Gettysburg to the Olympic 
National Park's beach trails, my family will put some small sum 
in there if we are fortunate to get a return that year.
    That money can also deal with invasive species. That hasn't 
been talked about, but in our area Knotweed is a tenacious weed 
that has slowly been creeping into the salmon bearing bred 
areas. We need to deal with those and have additional funding 
for the Park Service. The Park Service has been a leader in 
that effort. I commend Mr. Laitner for that, but he needs to 
have the resources to make that invasive species no longer a 
part of our problem.
    And we need to ensure that we stabilize our Parks as our 
Nation needs to grow and change over the years to come. We'll 
stay involved, and you will probably keep hearing from us, 
right or wrong.
    And then finally I just want to point out we brought for 
each one of you, because we knew you couldn't make it to Forks, 
a little token from Forks saying thank you. A friend of mine, 
Pat Boyle, and the folks at Hoh River wanted to make sure I 
brought these for you guys and said if you are ever out our 
way, we'll ensure that you have a wonderful visit.
    Thank you, Mr. Chairman.
    Mr. Souder. Thank you.
    [The prepared statement of Mr. Fleck follows:]

    [GRAPHIC] [TIFF OMITTED] T7380.024
    
    [GRAPHIC] [TIFF OMITTED] T7380.025
    
    [GRAPHIC] [TIFF OMITTED] T7380.026
    
    [GRAPHIC] [TIFF OMITTED] T7380.027
    
    [GRAPHIC] [TIFF OMITTED] T7380.028
    
    [GRAPHIC] [TIFF OMITTED] T7380.029
    
    [GRAPHIC] [TIFF OMITTED] T7380.030
    
    [GRAPHIC] [TIFF OMITTED] T7380.031
    
    [GRAPHIC] [TIFF OMITTED] T7380.032
    
    [GRAPHIC] [TIFF OMITTED] T7380.033
    
    [GRAPHIC] [TIFF OMITTED] T7380.034
    
    [GRAPHIC] [TIFF OMITTED] T7380.035
    
    [GRAPHIC] [TIFF OMITTED] T7380.036
    
    Mr. Souder. Let me make a couple comments. I have a few 
questions, I will yield and then finish up with some follow-up 
to my initial comments here.
    First off, on the question of whether or not volunteering 
private donations, demonstration fees are replacing or 
supplementing, it's been interesting. I have never heard, Jay 
may have heard here and there, and quite frankly it's 
mysterious to almost everybody exactly how the appropriations 
process works, even members of the Appropriations Committee and 
the Speaker's office. But I've never heard a discussion of 
anything replacing.
    In fact, one of the biggest challenges when we do our 
annual letter where we ask them to increase Parks funding, and 
I think Congressman Lewis has been one of the leaders of that, 
but we kind of work together with NPCA in trying to target what 
is a workable number that can be just higher than they will 
possibly go but then try to leverage it, and Congressman Dicks 
does the best he can inside appropriations to make that happen 
on the Democratic side, and we work with our leadership.
    The pleading we usually get is from the Fish & Wildlife 
Service and from other agencies inside Interior. Quite frankly, 
any vote we take for Parks, it will just come straight out of 
the Department of Interior, that our challenge is not so much--
I've never heard, ``Oh, they are getting all these funds,'' 
it's that, ``If you don't put those funds in, the parks just 
won't have those people. There won't be volunteers. There won't 
be as many visitor centers open. Without the demonstration 
fees, we wouldn't have the dollars.''
    It's not like we're making a calculation saying, ``Oh, we 
can cover this in the private sector.'' It just isn't there. 
But putting up markers that show how short the Park Service is 
helps keep that from happening because it's, I believe right 
now, a theoretical problem. But we're so panicked. It's much 
like in New Orleans, the fact that private relief is going in 
isn't supplanting what we are going to do in the Federal 
Government because we can't possibly meet all the needs 
combined together. And I think that's more of a question there.
    I have some strong personal frustration with local and 
State leaders, and I'm just going to say this flat out. Don't 
talk to me about your problems with revenues. Your total 
deficits together in all of America don't equal ours. Don't ask 
the Federal Government to increase taxes if you won't increase 
taxes. The fact is that there are the same revenue sources at 
the local level as there are with us, and that's to raise 
taxes.
    It is a terrible problem we all have. Nobody wants to elect 
anybody from either party, with the exception of Jay, who is 
going to increase taxes, and he is targeting his to a small 
group. A broad group does not want to pay tax increases. They 
all think they can get something for nothing.
    And that we're in this together, and we're going to have to 
jump together, but the fact is our deficits are bigger 
proportionally. The only difference is we can print money, 
which inflates it and causes interest rates to change.
    So when we look at what is happening in the world, we'll 
just appropriate the money and print extra dollars so we can 
backdoor a tax increase, which you all can't do at the State 
and local level. But in these partnerships, we have to figure 
out how to do this.
    Now, one thing in Washington that is kind of interesting, 
you have more visitor centers at Mt. St. Helen's I think than 
you have at the whole rest of the State, which is another 
challenge. It's not the Park Service, but it is an illustration 
of some of the challenges we face based on how many access 
points there are.
    The pass system, I was just amazed this summer when I saw 
first in Oregon that different agencies were actually 
cooperating in a pass because as we put these fees in, if we 
don't work together, the average consumer in the United States 
is just appalled because they pay one fee and then they pay 
another fee and then they pay another fee, and the systematic 
way of working together is great.
    I would like your brain power to be put in this. We don't 
have to do this today, and we are going to put anything you 
want to submit for the record, your full testimony will go in, 
in addition to what is indeed the longest footnote I have ever 
seen in Mr. Fleck's testimony, but if you want to submit 
anything else. But we're looking for suggestions.
    And one of the problems with these fees is how to address 
this with lower income people because in my opinion the public 
support for the fees is there as long as they see it being used 
actually for the parks. The authorizing committee already 
signed off on trying to address these free for low income, as 
have the appropriators. The problem is nobody can agree on how 
to do this without having, you know, what do you have to do, 
present a student free lunch card there showing that you are 
getting AFDC? How do you do this in a fair way?
    At our last hearing, it was suggested that one possibility 
would be that in your tax form, if you are at, pick a figure, 
$35,000 or less, you could either check, which probably won't 
work, or have it automatically go over where you get sent a 
parks pass.
    The question is, resistance may come from IRS because we 
are using them for something other than just taxes, but how to 
do this in a simple way is our challenge because this isn't 
going to go down less.
    The Park pass is an incredibly good bargain, and it shows 
people will pay fees or taxes if they believe it's going to be 
used wisely. But we've got to figure out how this doesn't 
disproportionally impact low income people's access to it.
    Now, what I wanted to start with in this question time is 
with Mr. Dickenson. We've heard this management policy 
question, and I don't want to plunge into too much detail 
because I think it's a good point that's going to evolve, but 
this has hit all of us in a different way as we've more or less 
been stalemated in Congress from any major changes in either 
direction.
    Are management policies, what has been proposed here, are 
they followed closely by superintendents? Are these binding? 
What would policy changes out of the Department of Interior 
mean as a practical matter? Did you work through any of this 
type of thing before to fight off some----
    Mr. Dickenson. The management policies at the time give 
guidance to field personnel in terms of the operational 
problems that may arise and also to express the values and the 
long-term philosophical operational approach to dealing with 
the park problems.
    From time to time, there are events and situations that 
arise that cause a change, be it popularity of snowmobiles and 
whether or not those should be admitted to all areas and have 
the winter use program, etc.
    But I've never in my time, in my time, have never seen 
anything as insidious as what is being proposed now by the 
Hoffman paper. My understanding of this thing is that it would 
change the entire approach of superintendents and others who 
make policy decisions at the park level which would be tragic 
in terms of the long-term effect on the national park system.
    So not to minimize, not to minimize the effect of those 
management policies because they are followed, and I would 
predict, however, that the rank and file of the National Park 
Service, if somehow these changes came about, there would be a 
rebellion.
    I think that the people in the service are so deeply 
committed to the preservation of these National Parks into the 
future for use by future generations that you will probably see 
a mass exodus. I don't think a lot of people would continue to 
support the parks.
    Mr. Souder. You were parks director under Secretary Watt.
    Mr. Dickenson. Yes.
    Mr. Souder. Did you see any similar proposal? The most 
controversial words are ``would irreversibly harm.'' Did you 
ever hear that proposed under Watt or under Reagan?
    Mr. Dickenson. Not in those terms. There were efforts from 
time to time to enlarge the kinds of permissible uses in 
National Parks which included oil drilling, a more favorable 
view toward leasing minerals, etc. So I can say that it didn't 
occur. Why didn't it occur? Well, it didn't occur because I 
fought it, a lone voice in the wilderness at times, but I 
fought it. There was strong support on the hill to maintain the 
status quo.
    Above all, I always felt that I could rely upon the 
citizens of the United States of America to fight such an 
insidious proposal to change--to radically change the way we 
operate parks.
    If you start opening it up to the kinds of uses which I 
think are being proposed, you will no longer have a National 
Park System, per se. The kind of purpose that it serves now is 
renowned worldwide. And while there are different standards in 
different countries regarding parks, one of the basic things is 
the preservation of these natural features and cultural 
features for the use of future generations. That's constant 
throughout.
    Mr. Souder. And irreversible harm, would that term with the 
possible, I mean, certain cultural resources, like, if 
basically the Declaration of Independence were destroyed, it 
wouldn't be there, but wouldn't almost everything else be 
reversible? It would almost just be a question of the time? In 
other words, isn't that almost like a double standard?
    Mr. Dickenson. If you want to talk about cultural 
resources.
    Mr. Souder. But take a natural resource that you had that 
the only thing that would limit something is irreversible harm, 
most things will bounce back. It's a question of whether it's 
10 years or 100 years or 200 years, so wouldn't that almost, in 
effect, be anything is allowable under a standard of the only 
things that are banned is if it does irreversible harm?
    Mr. Dickenson. Not in my view because the visitors to the 
National Parks System of the United States expect to find a 
certain standard of performance. And one of the long-running 
battles that has occurred is timber extraction of the National 
Parks. Sure, it will come back in 100 or 200 years, but what is 
the immediate effect upon the visitor who comes to have a 
recreational experience in the park to see a series of clear 
cuts next to Old Faithful?
    I have great difficulty reconciling the irreversibility 
argument. I think that we went through a lot of policy 
discussion about the extinction of force fires. There's great 
natural value in having natural burns. Allowing for natural 
succession depends on it.
    I always felt, however, that those fires, those fires, 
which are in the vicinity of public use areas or those that may 
impact the quality of the visitor experience, need to be 
extinguished now promptly because of the scarring. That is 
something that the visitor doesn't expect.
    And I believe the expectations of the American people are 
that they do not want to have damage inflicted even on a short 
term or long term basis on National Parks. Let the natural 
processes work.
    Mr. Souder. So your definition of irreversible harm would 
also be relative to what the expectations are of the visitors, 
what their expectation is to see and that harm isn't just 
conceptual, kind of like, well, this will bounce back in 200 
years because most of you will be dead in 200 years who are 
visiting the parks, and it says not only to preserve, but for 
the enjoyment thereof.
    And you believe it would be irreversible harm for the 
enjoyment thereof for the people coming to the park?
    Mr. Dickenson. Precisely. I just cannot reconcile the short 
term impact. For what purpose? Is there a commercial motive 
involved here, you know? And commercialism inside the park 
isn't allowed. That's why the whole system was set up as it was 
from the outset in the event the multiplication of facilities 
all competing for the tourist dollar.
    And so I just believe that any kind of change in the basic 
policy governing the long-term maintenance of the park would be 
tragic.
    Mr. Souder. Thank you.
    Mr. Inslee.
    Mr. Inslee. Thank you, Mr. Dickenson. I very much 
appreciate your service in those past decades. I'm glad your 
voice is still active, and that of Mr. Watt is in the dustbin 
of history, so I appreciate you are still here.
    Mr. Dickenson. Those were busy years.
    Mr. Inslee. Yes. You faired very well through those years. 
We appreciate your courage in those difficult times sometimes. 
You mentioned this Mission 66, and it spurred a thought. Is 
there some grander vision that we should be thinking about 
here? You know, listening to our discussion, I was thinking, 
you know, we're fighting for appropriations, we're fighting to 
keep up with inflation, sort of dry account is the types of 
terms.
    For those of us who are real believers in the parks and the 
grander vision of the parks, should we be thinking in a 
different image or statement or campaign? Should we be thinking 
about a new birth of the American park system? Should we be 
thinking about some other nomenclature or package to wrap up 
our vision for the parks that is grander in scope that may 
connect more with the American people?
    Do you have any thoughts in that regard? I don't have any. 
I would love to know yours.
    Mr. Dickenson. The 100th anniversary of the establishment 
of the National Park Service comes in 2016. And some people 
have thought in terms of a renewed reinvestment effort tied to 
that. That has some merit, I believe. It's quite a way off, but 
in view of the multiple problems facing the United States now 
and the drain on the budget, etc., probably some long-range 
thinking ahead of time is desirable and that is one of the 
things that is being considered by some.
    Mr. Inslee. Great idea. We should start thinking about it.
    Ms. Jewell, you come from a business perspective, and I 
have not heard at least anything of any significance of 
criticisms of the Park Service for their managerial skill. In 
other words, the typical reaction is you get funding issues, 
No. 1, either you are not spending it well enough, you are 
wasting it or you don't have enough revenues.
    And I haven't heard much criticism of the Park Service of 
massive waste, fraud and abuse. I think I heard of a $600 
outhouse somewhere that made the headlines briefly, but from 
your organization's standpoint, is there any specific 
suggestions in that regard as far as sort of managing and 
approving management from a fiscal perspective that we ought to 
consider besides the revenue side?
    Ms. Jewell. Well, I think that overall there is no 
criticism that's appropriate to level at the Park Service for 
mismanagement of resources. I think they are doing a very good 
job under the circumstances. I think as Dave Uberuaga talked 
about, when you are dealing with national registered historic 
structures, that automatically increases your cost. When you 
are dealing within the Federal contracting arena, that 
automatically increases your costs.
    One of my frustrations as member of the Board of Regents of 
the University of Washington is having to deal within the 
structure of State regulation and how that increases costs 
relative to the private sector. So I think the extent that we 
might think about how those regulations impact the efficiency 
of our spending are important.
    One of the areas the NPCA has been involved in that I think 
has been generally welcomed by the Park Service is something 
they call the Center for Park Management, which is actually 
using MBA students as well as professionals, bringing them into 
the parks to work alongside the Park Service staff to help 
identify areas of perspective enhancement to the efficiency of 
their spend.
    You know, one of the examples I've heard at our board 
meetings is about fleet maintenance and how you do that in a 
more efficient basis compared to what the private sector might 
do. And I think that there is--I have seen a complete openness 
on the part of the Park Service to find better ways of doing 
things that are less expensive so that they can put resources 
where they need them most. So, you know, this is not a 
situation where as a private citizen or a business person I've 
seen evidence of irresponsible spending. I think that we have 
people that are scrambling to spend money as wisely as they 
possibly conclude.
    Mr. Inslee. Thank you.
    Ms. Jewell. Can I add something to your question earlier of 
Mr. Dickenson? You talked about the irreversible damage. One of 
the things that he didn't mention, but I know, I'm sure, is in 
his mind, is that of wildlife. When you put roads or you put 
motorized vehicles into areas that have previously not had 
traffic, it absolutely impacts the wildlife habitat.
    And when you are dealing with some critically endangered 
species which we have in a number of places, you run the risk 
of not having that habitat sufficient to sustain those species, 
and that is a reversible.
    One of the things that I learned at the last NPCA board 
meeting that I attended in Glacier National Park was really how 
much better job we're doing in the United States relative to 
Canada on contiguous habitat for grizzly bears. And, of course, 
everybody is not necessarily fond of grizzly bears, but as with 
so many other critical indicator species, if they go, other 
things go as well. You've got, you know, an increase in other 
populations which begins to impact the wild and scenic areas. 
And I think Yellowstone is one which has received a lot of 
attention----
    Mr. Dickenson. I appreciate that.
    Ms. Jewell. Yeah, the motorized traffic, even if it is not 
by putting in additional roads, but just putting access into 
some of that back country, does have irreversible damage on the 
wildlife populations even if the natural environment might 
regenerate itself. I think that's just an important thing to 
add.
    Mr. Inslee. One comment. I think one of the reasons people 
are so concerned about National Parks is that we have similar 
funding issues in our recreational use in our Forest Service 
budget and others. There were two mountains I was going to go 
up this year, Mt. Constance and Glacier Peak. Both of the roads 
to those places are closed, and there are no plans that I'm 
aware of to re-open them because of Forest Service funding 
issues to allow this recreational access to national land.
    At the same time, the current plan of the administration is 
to scrap the roadless area rule which would allow the 
administration to spend taxpayer subsidized dollars to go build 
logging roads to clear cut in our most pristine national forest 
lands, at the same time the Forest Service doesn't keep 
existing roads open to get hikers and fishers and hunters to go 
up to existing Federal lands, and those roads are also used to 
access the national park. You go into the Buck Horn Road and 
other roads, and they give you access to the national park.
    I just mention that because the problems we're experiencing 
in the backlog, which is $11 billion, there's an $11 billion 
backlog for keeping recreational roads open in the Forest 
Service, and I just think that's an important point when we 
talk about how dire this problem is.
    Thank you.
    Mr. Inslee. Mr. Fleck wanted to say something. I'm not 
going to go into the roads and timber, but I do want to leave 
that for another hearing at another time, sir. But the big 
issue you raised about the lower income people having access to 
the parks, that's a huge one. In my community, one out of four 
kids live in families that meet the Federal poverty level, one 
out of four. That's a huge one. The park is all around us.
    There's some innovative things Olympic does when they have 
their fee in place, when they don't, that allow access to those 
parks. For a lot of folks and having grown up in the Tri-Cities 
when WPPSS failed, the parks were the place for those of us who 
didn't have money could go do things with our family. And so I 
really think that is a tough one to crack, but it's one of the 
most commendable ones to take on.
    Mr. Souder. I wanted to comment briefly on Ms. Jewell's 
comments relative to Mr. Dickenson's. He made a really 
fascinating point because I don't think--we know for sure the 
management plan isn't going to survive the way it is. It's just 
a question of what it will look like.
    And this irreversible argument is fascinating because it 
has been underneath here for some time, and it is not an easy 
one to handle because unless a species is so far gone and they 
have no habitat, it is amazing how they bounce back. The 
grizzly bears are, in fact, a good example of that and wolves 
are a good example of when you reintroduce them, they do come 
back.
    But if we have a different standard, then whether they 
theoretically could come back in 50 or 100 years, this will be 
an easier debate to have. Because even in the fish and wildlife 
law, I understand what you were driving at, if we get rid of 
the habitat, they'll leave different areas, but it's amazing 
even in wetlands how habitat can come back if you concentrate 
on it and work on it. It's just far more expensive, it takes a 
long time, and you lose in the interim a question of the value.
    But he put a little bit different spin on this because 
underneath it, we're always debating that fundamental question 
whenever there's a new housing development, whenever there's a 
new anything in a community. And these are tough tradeoffs in 
the margin of where the young people who love to hike and love 
to be in the outdoors are increasingly looking at areas around 
the national forests and national parks, these zones, and even 
responsibility of the cost to the taxpayer of forest fires when 
people go up against these zones. It's a huge, huge challenge.
    I mean, sometimes--and in the end I have a different 
challenge. We have 3 percent public lands counting township, 
counties and State and Federal. It is a totally different 
challenge. And the way many people look at it from Indiana is 
that we pay, send our tax dollars that we work for out west so 
that then people can have nice homes right up against all these 
forests and everything, and then they catch fire, and we're 
supposed to cover to rebuild their home in, say, Malibu Canyon 
for the third time or other places, and then our kids want to 
go out and live next to those forests, too, so we lose the best 
of our areas.
    And we have to figure out kind of where these interact 
areas are. And it isn't just a question of whether there's 
irreversible damage, it's a question of how are we going to 
have logical buffer zones and feeder zones with that.
    Mr. Reichert.
    Mr. Reichert. Thank you, Mr. Chairman.
    Ms. Jewell, you mentioned the reduction of interpretive 
rangers and the contracting. Do you know who the contract is 
with?
    Ms. Jewell. No. It was Yellowstone is what I was referring 
to. That's just personal experience. But I don't know who the 
contractors were.
    Mr. Reichert. That would be a question for the first panel.
    Ms. Jewell. We can come up with the answer I'm sure through 
NPCA.
    Mr. Reichert. OK. Do you know if there's any arrangements 
with the National Archives or the Smithsonian or Department of 
Education partnershipping with the National Park Service as to 
provide some of that educational opportunity? I just think 
that's an important piece that we need to focus on.
    Ms. Jewell. I don't have an answer.
    Mr. Reichert. Does anyone on the panel know.
    Mr. Dickenson. There's a long-term arrangement between the 
National Park Service and the Library of Congress for the 
recording of historic structures which has been most valuable 
through the years, I think well over 50 years.
    Mr. Reichert. Thank you.
    Ms. Jewell. I will get an answer to that, though, through 
NPCA if there are any such arrangements and let you know.
    Mr. Souder. Can I make a comment on that.
    Mr. Reichert. Sure. You are the chairman.
    Mr. Souder. Because one of the things that we need to look 
at, which I have really stressed because it's clear that the 
Park Service is pretty effective at responding to local schools 
right around a given park. But as I've watched through my 
daughter who is an elementary school teacher, she was teaching 
third grade, and they had a bat class, and she hooked up with 
the superintendent down at Carlsbad Caverns who got her bat 
information, and she was able to do that.
    Well, the question is with the Internet now, and the 
Department of Education ought to be taking a lead with this, 
how can they make education more alive for kids like hooking up 
with the tremendous resources we have on volcanos right now, 
what happened at Mt. St. Helen's. You have a whole volcano row 
from Lawson to Baker. You know, the history of how Lawson has 
come back versus others that are kind of in between with Mt. 
St. Helen's still smoking now, you know, how can this get 
integrated into our curriculum shouldn't have to be borne just 
by the Park Service, but they ought to be interconnected. So I 
would love to work with you on that.
    There are some, but interestingly it's stove pipe. Just 
like we see with Homeland Security stove pipe, it's like 
education. It's like somebody does education in this and this 
and this and nobody is interconnecting.
    Ms. Jewell. Can I just use an example here to illustrate 
this? Because I think your point is very, very well taken. One 
of the critical things that REI has been working on for some 
time is how do we connect kids back to the outdoors? And I 
think we all know challenges of sedentary lifestyles, you know, 
distractions, video games, over scheduling, whatever the 
reasons are that don't get kids playing outside or appreciating 
nature, this is a critical issue going forward in the parks.
    If we don't make them attractive and they don't--whether 
it's through their schools or otherwise, don't have the 
experiences that we had, we aren't going to have the advocates 
for the future.
    So for Russ's great grandson, that's amazing, and others, 
if they aren't having a positive experience so they aren't 
having something that engages them, whether it is a ranger or 
whether it is a school teacher, we're in trouble.
    One of the things that we've done at REI is take a backpack 
that is chalk full of curriculum and Leave No Trace principles 
and take it out to schools. We'll touch 50,000 children just 
with our employees going out to school to teach Leave No Trace 
principles.
    And I think those kinds of efforts that are going on will 
make a difference, and I think that the parks have been very 
willing to work with us and with others in engaging youth 
groups.
    I took a young woman up to do some back country camping on 
Mt. Rainier, and there were 100 Boy Scouts up there at that 
time. And they are allowed into the park to participate in 
winter camping experiences in exchange for doing volunteer 
service projects there in the summertime.
    So those are the kinds of things that I do think go on that 
stretch those resources to young people, and I think to the 
extent the National Parks would work with outside 
organizations, that would just supplement that.
    Mr. Reichert. Thank you. I just think that is so important. 
And Mr. Fleck's question or response to a question on, you 
know, how low income families or lower income families may be 
to enjoy the parks reminded me of the days that my family of 
nine rode to Mt. Rainier and were accessed to the park for 
free, and it was a place that we could go as a low income 
family. Great memories and a great opportunity for us to learn.
    And that brings me to Mr. Dickenson's comments. I thought 
that you spoke with a lot of passion and a lot of feeling, and 
you can tell that you enjoyed your career very, very much. Even 
though the challenges were there, of course, you had great 
experience not just with history, but you speak with a lot of 
wisdom, and the people in this room and the people on this 
panel certainly should pay close attention to the words that 
you shared with us today.
    I identified with your remarks to a certain degree having 
been a sheriff in this county for 8 years and having to make 
those $1 to $2 million cuts to a $110 million budget a year and 
trying to prioritize your resources and really what is your 
core business function and how do you provide those things like 
interpretive rangers or school resource officers or DARE 
officers where the connections through our young people are so 
critical.
    And to me, that's been a passion, and I know the people in 
the community know that, you know, working with Green River and 
working with kids on the street, prostitutes and kids on drugs, 
they need to get out into our parks and see what this world is 
about other than the streets of downtown mega cities across our 
country.
    I want to just take the opportunity, Mr. Chairman, to share 
a story that I think really draws it to the point Mr. Inslee 
was also making is what kind of vision should we really have 
for our National Park System and preserving our parks.
    I don't have a great grandson yet, sir, but I have six 
grandchildren, and my oldest grandson will soon turn 11, and 
his sister is 8. And a few years ago, I think they were 7 and 
5, and we were on the east side of the mountains, and we were 
walking through an area that was sort of a high desert area. It 
was in the spring, and the snow was beginning to melt. And as 
we walked, they were holding my hands. And I just have to share 
this story. I'm sorry. I'm proud of my grand kids, too, but 
it's just a picture of really what we need to preserve here.
    And if you can imagine a grandfather and a 7-year-old 
grandson and a 5-year-old granddaughter. I know you can. And 
some of you in the audience, I see there's a few of you out 
there, and as we're walking through the snow that is melting 
and bare patches of grass, we come along a track of some deer, 
a couple of deer. And so we stop, and we point out the deer 
track, and the excitement in their face, their eyes, you know, 
get wide and bright and excited because there's a possibility 
we could see a deer.
    And so I pointed it out, and I said, ``Let's go on. Let's 
see if we can find a deer.'' And they said, ``Yeah, let's go 
on.'' So we walked a few feet further, and around this--it was 
sagebrush, and we came across another track that all of a 
sudden joined the deer track, and it looked to me like it was 
either a bobcat or a cougar. And so we stopped, and I said, 
``You know this, Caleb, Timmery, this looks like it could be 
the track of a big cat,'' you know. Their first thought was big 
kitty cat, and I said, ``No, this is like a cougar, you know.'' 
And I said, ``But let's go on.''
    And I tried to move forward, and they are stuck in the 
snow. They aren't going anywhere. And my grandson tugs at my 
right arm, and he says, ``Papa, correct me if I'm wrong,'' and 
this is a quote, I never talked like this when I was his age, 
believe me, ``correct me if I'm wrong, but don't cougar eat 
deer?'' And I said, ``Yes, Caleb, they do.''
    And so we walked or I tried to. I said, ``We should go. We 
should move, go on.'' He yanks back on my hand one more time, 
and he said, ``Papa, do you really think it wise we continue 
on?''
    And it's just--I tell that story often to groups because I 
do think it wise we continue on. This is a tough problem we 
have ahead of us. And I really appreciate so much both panels 
being here today and the work that you do. And I know everyone 
in this room has a passion for this and a great desire to see 
that we preserve our lands for the enjoyment of our kids, our 
grand kids and my great grand kids eventually, sir, and 
congratulations on your great career.
    And I just wanted to tell the community here since we're in 
the 8th District that I'm committed to this project, too. I am 
committed to protecting our lands here, and, as you can see, 
the panel members are all quite passionate about this. And it's 
just an honor to be here today, and I thank you so much for 
your help and everything.
    Thank you, Mr. Chair.
    Mr. Souder. Thank you. I want to just do a few more 
questions here before we finish up so I can make sure I get a 
couple of these things right.
    First, I thank you for your work with NPCA. There are lots 
of different groups with lobbyists, but the key thing is to get 
accurate information and comprehensive data. And I very much 
appreciate their involvement with these hearings and with the 
data on the hill with the Parks Caucus, and the testimony you 
gave today will just be very helpful.
    Each year we come out with a hearing book, and we're going 
to do a final year end report like they do. Ours will have the 
official congressional report, and we can work together, but 
thank you for your work with that, too, because I know having 
come from the business community, you never know when you get 
mail from all these different groups which ones are actually 
working and which ones are mostly raising money. They have been 
a tremendous help.
    One of the problems, I wanted to ask Mr. Malmberg this and 
then Mr. Dickenson, one of the problems we have is no matter 
what we do here, let it be even in working with the Centennial 
Act, it won't be enough money that there are going to be 
serious structural changes in how we do things. The Park 
Service is already probably the most contracted out agency in 
the Federal Government. We're clearly using supplementary 
funds, that the same thing that is hitting Northwest Airlines 
and every airlines and GE and Ford and GM are both struggling 
with pensions and how to deal with healthcare costs. As a 
society, we just plain make more promises than we can meet 
given the economic growth.
    The Park Service has been systematically getting better at 
kind of an architectural inventory, a cultural resources 
inventory, trying to do core ops, trying to do different things 
of how do we prioritize because one of the problems is that the 
only management problem I have ever seen is lack of willingness 
sometimes to make hard decisions because everything is 
important. And if everything is important, nothing is 
important.
    And how are we going to do this? I'm on the board of the 
Indiana Landmarks, and one of my frustrations is that if you 
say every old bridge needs to be preserved, every old school 
needs to be preserved, the cost to do this right is about 
impossible.
    At the Lewis & Clark sites, I got to see the archeological 
site. Archaeology is one of the things that gets kicked out 
early. And, quite frankly, if we don't do the archaeology, 50 
years from now we may decide something was important that we 
didn't do at the time, as we have learned from some of the 
world's most famous archeological sites that these things tend 
to go over the top of each other. And it is one of the hardest 
to sell.
    Then the next thing is the buildings which is a huge 
problem because if every building has to be preserved in the 
way it was originally made and every building is deemed 
archaeologically significant, there's just no way that we're 
going to be able to keep up. I mean, whether it's trying to 
keep up adobe buildings or how to preserve Native American 
things, then this also leads to the question of do we focus on 
a particular era theme at a park, what is its primary and what 
is its secondary?
    We just saw this on the Lexington Concord Road that the 
Park Service in trying to make it somewhat similar, you get 
into all kinds of questions here. There weren't any trees, they 
had cut down the trees to farm, so now if you cut down all the 
trees on the Lexington Concord Road, much like at Gettysburg, 
people will holler because it's mostly really a bike path right 
now. Most people who are using that park are using it as a bike 
trail not to try to, you know, see the Lexington Concord. What 
is the park mission here?
    Furthermore, they have now wound up with a bunch of 
buildings that are historically significant, but weren't there 
with the mission of the park, and yet they have to use the same 
kind of nails, the same kind of window panes, the same kind of 
paint to try to redo this.
    And what I fear will happen with this Centennial Bill is if 
we don't kind of figure out, OK, which ones are going to be 
maintained at the purest level, which ones are we going to 
maintain at a mid level, and which ones are we going to just 
basically let go to rot, what we're going to do here and NPCA, 
and we have discussed this intensively, even in trying to 
address the operating as opposed to backlog, the danger here is 
people are going to say add nothing, which is the position of 
the Park Service.
    Basically, for the last 8 years they've opposed every new 
proposal we came up with, didn't like the Lewis & Clark 
proposal initially, particularly at the Washington side or for 
that matter the trail because we have a backlog, we can't keep 
our personnel here, why should we add that?
    Angel Island is a huge challenge. Here's arguably the Ellis 
Island for the Asian area. The State of California hasn't put 
the funds in. It's falling down. If the Federal Government 
doesn't intervene, it may not be there.
    Plus the whole new concept, which Lewis & Clark is a 
classic example of, the historic example is a contiguous kind 
of solid park together as opposed to five different, say, 
historical, cultural or some green space which is really what's 
happening more east of the Mississippi because most of the 
funds in the Park Service have been dedicated to the west.
    Now you see a rising desire for this in the east, which is 
somewhat compromised in a sense of environmentally compromised 
land, sites that aren't necessarily contiguous and to try to 
buy up the land in between is impossible. And we're going to 
lose those sites if they are built over. It's not irreversible. 
You can always tear down 50-story buildings, but you are not 
likely to, or huge condo developments.
    But how do we, in effect, make these decisions on the 
archaeology, on preservation of the building and the 
prioritization of the land?
    And I wanted to ask you, Mr. Malmberg, because clearly, and 
I'm going to raise the second part of this with Mr. Dickenson, 
and that should be the last of my questions, but we'll see, 
because in Washington State, and Oregon less so because they 
appear to have a fund built in for their parks a little 
different than others, but I saw this in the California 
Redwoods, we are increasingly doing more partnerships and let 
me describe this as it now ties in with the first, at 
California Redwoods, the Redwoods are actually predominantly 
State parks and were there before the Federal Government got 
involved. The Federal Government interconnected in between.
    When we started this process, the Federal Government had a 
few rangers and the State was the dominant. Now there's 120, I 
believe, NPS employees, and we're down to 20 State employees.
    The State has lowered and lowered, much like you were 
worried about the private sector being replaced. What in fact 
has happened is the States are not keeping up proportionately 
even with the Federal increases.
    You talked about the additional money coming in in the 
State of Washington, but this is going to be a challenge as we 
look at the Washington side of the State park, that as we look 
at California, another thing that has happened is the State, 
the Federal boundary line is drawn around Redwoods, but the 
State has added some more watershed area.
    Now that the Federal Government is taking about, what, 80 
percent of the staff there, the Federal rangers can't go in to 
protect this watershed area, and it's not in the Redwood park.
    But since most of the people are now Federal people, what 
we've come to understand is if we say we're just going to deal 
with backlog, we're just going to deal with the current staff, 
what has happened is we've all understood more that, hey, the 
watersheds to our existing parks are pretty critical, and not 
everybody has forest land up against them, and we're going to 
have to get more buffers, and it is very hard to get this into 
the National Park.
    I'm raising a number of these things because, as you know, 
as you told me and as I have been told earlier, the State of 
Washington has five interpretive rangers in the State is my 
understanding, and you've got them all. And three of them are 
at Lewis and Clark.
    Are they going to stay at Lewis and Clark? Is the State, 
now that we have a partnership and this is a national park, is 
the State also going to come up to the table or are those going 
to get transferred out after the anniversary is over, and the 
Federal Government is going to do it?
    How are we really going to work these partnerships? How are 
we going to partner and prioritize? Because as you are digging 
those archeological sites there to move the area, we're finding 
other things. And there's a couple of sites there, the one on 
your coin, that's a Washington site that is on private land 
that you are distributing a nickel, isn't it, to the whole 
world, and people are going to want to go see it, and they 
can't?
    Now, I understand that this needs to be worked out long 
term, and I know this is not something probably anybody from 
Washington wanted me to raise, but at some point that needs to 
be worked through so people can go through there.
    But if you are adding new land, I'm raising that this has 
another complexity because we don't want to kind of freeze the 
Park Service, and yet what we're saying is we don't have enough 
money to freeze the Park Service, even with the additional 
money, but we are going to always have new things, and how are 
we going to deal with this? And I just kind of wanted to pick 
your brain.
    Mr. Malmberg. That was a very long question.
    Mr. Souder. It was a short question. It was a long buildup.
    Mr. Malmberg. Well, unfortunately, the State park systems 
have emulated the national park system in a number of ways and 
deferred maintenance or maintenance backlog is also a major 
problem in our agency, as I'm sure it is in Oregon, too.
    We're continually looking at different ways to keep these 
funded. If you want to specifically talk about Lewis & Clark 
State and national historic sites since that is in my region, I 
can very well tell you we are not looking at dropping out 
because the National Park Service has come in to help us run 
the park.
    Cape Disappointment is one of the largest parks in our 
State system. It happens to earn enough revenue to support 
itself at this point. We put a million dollars into that Lewis 
& Clark interpretive center. We don't look like we are going to 
back out and say, ``OK. Now you can send people over.''
    What we're looking at is trying to provide, as we said, a 
seamless service because the public doesn't understand the 
difference between my flat hats and the National Park Service 
flat hats. They don't understand the difference between the 
arrowhead logo and our logo and Oregon State Parks logo. All 
they want is to come to enjoy the resources, have a good time, 
spend time with their grand-kids, and we're committed to that.
    And the nickel that you mentioned that has an ocean view 
happens to be a view of Cape Disappointment, which happens to 
be under my management, so you can get onto it.
    Mr. Souder. My understanding is the land where the view is 
from is privately held, and it's not even clear precisely where 
that is, but either choice is privately held.
    Mr. Malmberg. You can take a picture, and I can get you 
into the spot where you can take that picture. But, yes, and we 
are continually looking at buying that. We just bought about 20 
acres in that particular area to add to that park, so we're 
committed to that.
    But we also have the same problem of deciding what's 
important. Which one of your children do you give up to raise 
the other one up to maturity? It's a tough--it's tough. You 
just asked the toughest question in any kind of parks 
management because there are no resources that are worth it.
    Mr. Souder. So you wouldn't, and, Mr. Dickenson, maybe you 
can address that, so you wouldn't, say, prioritize under the 
Antiquities Act, the Landmarks Act or so on and just say some 
of these things are higher priority?
    I mean, to some degree the Park Service is doing that, but 
to some degree you are mandated to protect everything once it 
reaches a certain year. It's just a matter of----
    Mr. Dickenson. Well, there's some leeway. Just as an aside, 
I might mention that when I became director, there had been a 
recent surge in authorization of new areas, a very dramatic 
surge, and so there was essentially during my time a 5-year 
moratorium on adding new areas to the system in order to, what 
we call, catch up, to use the resources in the best possible 
manner.
    Every time that you authorize a new area for the system, 
that impacts every other unit within the existing system, and 
if the budget doesn't take into account the arrival of this new 
child, well, then, somebody has to pay the price.
    Now, I think the system must expand. There's always a need 
to honor the achievements of our fellow citizens, our heroes 
and heroines, and so in the historical field, the cultural 
field particularly, there's room for growth as the years go on 
in order to recognize the flow of history.
    I have a personal belief that most of the outstanding 
nationally significant natural areas in the United States have 
been recognized. And I would think that Congress ought to look 
pretty carefully at any new proposal to add new areas. There 
are other--I would have to be convinced personally that there 
is a high degree of national significance and no other agency 
in a position to provide the kind of sensitive oversight that 
needs to be given to these areas.
    Regarding how you make judgments regarding what you 
preserve and what you do not or to what degree do you say you 
are going to preserve, this is a judgment that has to be made 
by a thorough study of the historical personage or background. 
Every outhouse doesn't need to be saved on Mt. Vernon, for 
example. The same is true in any unit of the system where you 
have cultural resources. Judgments have to be made as to 
whether you will give it the highest degree of protection 
faithful to history, faithful to the architectural values or 
whether there shall be elimination.
    Historical property can be exposed of depending on the kind 
of advice that you receive from the professionals or benign 
neglect. It's perfectly within the purview, I think, of the 
managers that serve to make these kind of judgments with 
professional advice.
    Mr. Souder. Let me followup on one thing on the additional 
land. An argument could be made that of the crown jewel parks, 
they were pretty well done like in the 40's with a few 
exceptions, that past the crown jewels, you get into a now more 
difficult question, and then you get to the next tier, and the 
same thing could be said of cultural arts, Gettysburg versus 
the home of an artist or the Longfellow house where it was both 
Longfellow's and Washington's headquarters, but it's been 
altered multiple times, and you have one house inside of 
another house, that part of the political problem is that, 
bluntly put, I don't believe the State parks have in fact kept 
up with the National Parks. I don't believe that's a fact, that 
we've increased the Federal funding at a faster rate nationally 
taken over 10 or 20 years than the State parks.
    Back in the days of Roosevelt and others, Indiana, Iowa, a 
few other States were at the cutting edge, and you had a 
phenomenal State park system in the country. And if you look at 
the additional units to the State parks in the United States, 
it is far less than the additions to the units of the Federal 
park proportionally.
    And what has happened is that has put more pressure on the 
national park system to pick up things that are regionally 
significant because if they aren't doing it, there won't be any 
green space.
    So what may have been a second tier green space in terms of 
looking at it compared to Rainier, it's the only green space 
left, and it's very expensive in the east, and this is a 
political challenge that many of my Republican colleagues from 
the west who always complain about the Federal Government 
approach and how much Federal land they have, so I, when 
Chairman Hansen was head of the committee, proposed that 67 
percent of any new dollars go east of the Mississippi and 
challenged some of my western colleagues to say, ``Look, we'll 
take the money.'' They decided initially they were kind of 
leaning toward it, but then the sagebrush rebellion wasn't that 
much of a sagebrush rebellion. They liked the money.
    But the rug hits the road almost every week right now in 
Congress with something coming up from the floor. At the 
Brandywine Battlefield, the heart of the battlefield was going 
to be donated by a convent, not donated, but was going to sell 
at about one fourth the market value. It was going to be sold 
to a condo developer, and we would never have it. It also 
happened to be some of the only green space contiguous to the 
Wyath and then I think there's a fish and wildlife area to keep 
some open space in suburban Philadelphia.
    This is the kind of real world tradeoff we're making. It's 
a historic site. The Brandywine was not--it was important, but 
not overwhelmingly important. We had a headquarters. We had 
some other stuff. Yes, it was the heart of what was a sprawling 
battlefield, but it's also green space. Now, historically that 
might have been a State park, but the State doesn't do anything 
about it. It would have just been built over. And yet the 
majority of Congress, in fact, lies east of the Mississippi.
    My friend Jim Ridenour tried to come up with national 
recreation areas or heritage areas, I should say, to try to 
head this off. You've got a moratorium, the moratorium is about 
to end, and so he says, ``OK. Let's stop this park barreling, 
you guys, by putting heritage areas in.''
    Now what happens is we have, I think it is, 40 some 
heritage areas that we've authorized in Congress, and they can 
only manage eight a year in a study over the Park Service.
    And, literally, we're going to have 200 heritage areas 
where the Park Service is going to have to put their sign up, 
where they are going to have to have their staff there, but 
won't have any control over it because, guess what, the same 
demand that started with the park in Oklahoma, with Mackinac 
Island, with the hot springs in Arkansas. They may not have 
been if you look at the first five things in the Park Service. 
One of them is out, one of them has been reduced and Mackinac 
Island is back to a State park, that park barreling and adding 
additional things started from the beginning is just not going 
to stop.
    So the question is how do we accommodate what is a--whether 
it's the State's issue, whether it's other types of things, I 
know the heritage areas are one way and the recreation areas 
are another.
    I mean, another dilemma we have in looking at this is Santa 
Monica, Gateway and Golden Gate have 12 to 14 million visitors 
a year compared to--what does Mt. Rainier have, 3?
    Ms. Jewell. 1.2.
    Mr. Souder. 1.2. So the people are voting with their feet. 
Now, the interesting phenomenon here, as Brian O'Neal 
challenges everybody to point out, is that furthermore if you 
take the 100--I think it's the 120-mile radius around Yosemite, 
more people go to Golden Gate from farther than 120 miles away 
than go to Yosemite, yet we think of Yosemite as people take 
one trip, but it's mostly used by locals.
    It's because New York, Los Angeles, San Francisco are the 
biggest convention centers and tourist areas in the United 
States, so people go over to a unit of the park.
    Even our concept of what are the crown jewels not in an 
environmental sense, but in exposing people to it, where are 
the Hispanics going to go to the parks? It's not likely that in 
the first generation, it's going to be Yellowstone. Some will. 
But it's going to be like San Antonio missions where they are 
not even going to see the missions, but they're having a picnic 
there. And the Park Service is trying to figure out that 90 
percent of the people in their park are having a picnic and 
then they go over and see the missions. These are in our core 
challenge of who we are and how we fund this.
    That said, I just wonder if you have a reaction to that? 
Because you are in the middle of this. You saw this in effect. 
Now that the Bush administration is in, like Reagan, they 
basically wanted to have a moratorium on any new lands, and it 
isn't working. And, therefore, all we do is add more units and 
not increase the funding enough.
    Mr. Dickenson. The development of the urban recreation 
system in New York City and San Francisco just essentially in 
my view came about because of the failure of the cities to 
provide recreation. They were looking for an alternative. The 
Federal Government gave them that alternative. That's not to 
say that there haven't been some good results and some real 
benefits derived from the urban recreation concept system.
    Georgia, for example, has a marvelous downtown largely 
natural Chattahoochee River. The benefits that flow from that 
are tremendous. But the question was then and I guess still is, 
is that a proper responsibility of the Federal Government and 
the National Park Service to run that sort of thing, especially 
when you are dealing with a very prized possession. The 
National Parks have been called crown jewels, and why that is 
is because they are so unique. There is nothing unique about 
downtown Atlanta. And I will probably hear from that.
    And Golden Gate and San Francisco have marvelous assembling 
of recreation. But in the long run, is that a proper 
responsibility of the National Park Service and the Federal 
Government versus the row of the city? That's a pretty 
fundamental question there.
    But you might say it's already been decided, but there 
hasn't been any expansion of that concept now for over 20 
years. So at least you would think that somebody has given some 
consideration to it.
    If you dilute it, if you dilute the National Park System by 
putting in what might be called inferior, substandard or not 
nationally qualified areas, you can destroy it because it's a 
concept in the mind of the American people that makes the 
National Park System such a success, the idea that this is 
unique. There's only one Grand Canyon. There is only one 
Yellowstone. There is only one Mt. Rainier, per se, and so on.
    And if you dilute this by bringing in what I won't call 
substandard areas, but areas which ought to be managed by 
others perhaps, and put this on the National Park Service, I 
think it weakens the entire system.
    Mr. Souder. All right. I appreciate those comments. It's a 
huge question. My friend Congressman Markey from Massachusetts, 
every time he puts in an oil derrick in the Arctic National 
Refuge, I always ask him the question because I don't think 
it's correct that there's been no new concepts.
    One of the new concepts was the Boston Islands National 
Park area where the Federal Government owns nothing, and inside 
of that is Logan Airport. And I asked him whether he wants to 
remove Logan Airport from the national park because their city 
sewer system is in the national park area, their airport is in 
the national park area. It does have the first lighthouse, but 
that is under the Coast Guard, and it has a fort that is under 
the State, but it was put into the Park Service, basically, to 
try to get an excuse to do an environmental cleanup.
    Now, those islands are beautiful, and they could be 
restored, but they are not going to take these back to pristine 
standard of even Yellowstone because you have a big city around 
it with their airport in it and their sewer system in it and 
big oil distribution tanks in it, yet it's now part of what's a 
new term, the only one I believe in our service, called a 
National Park Area.
    We are also increasingly getting national park reserves, 
which is another new term to basically try to manage and to 
expand to try to keep people farming next to a park to try to 
keep high rises out so we pay through the Park Service kind of 
a sustaining thing which is a variation of what we have done 
which is really proliferating because we can't afford to add 
the land, but we work with nature conservancy with these kind 
of things.
    And this is going to continue to evolve, but these are the 
real world things we are trying to deal with in the budget is 
every time you do a heritage area, every time you do a park 
area, if we say we're increasing funds at 3 percent, but the 
payroll is increasing at 7, and then we add all these new 
areas, this doesn't work unless we change something internally 
and/or get more money from outside.
    All that to say, I don't think you have to worry about 
substitution of funds. We have some really structural problems 
that we're trying to deal with, partly because people love the 
parks so much they want everything to be a national park. And 
then unless the State and local try to help with this, we're in 
a whole heap of trouble.
    Mr. Dickenson. There's a couple of things I want to add. I 
worry about the impact of commercialism as a reason for 
establishing a park, and while this has not been blatantly done 
in recent years, at one point in our history, one of the things 
that local groups pushed the Congress is to establish areas 
because they had an impact upon the local economy. And that 
leaves the door open for less than nationally significant areas 
coming into the system.
    We haven't seen much of that in recent times and thank 
goodness because that really could be the death of the system 
as far as I'm concerned. You have to have those high standards 
maintained, and if the standard of service at the areas 
themselves that are already established isn't up to snuff, the 
public is turned off, and the value of the national park system 
for people in the United States is simply going to go down when 
that happens.
    Mr. Souder. Maybe we can mix some of the dark brown with 
some of the light brown, and that will really start a political 
battle.
    Mr. Inslee. Just commenting, there is a unique place in my 
district on Bainbridge Island. It's the first place in the 
United States where Japanese American citizens of the United 
States were interned by the Executive order of the President. 
We have an effort now to add a very small park to the Minidoka 
or other complex National Park Service.
    When that happens, Mr. Dickenson, I hope you will join us 
when that--at the celebration where I can honor your service 
when we finally get that done.
    First, I want to thank Mr. Chairman. I want to tell--Mr. 
Reichert told one story. I just want to tell one story in 
parting. My dad was working on Mt. Rainier in the SCA program 
back in the 60's, and they were going to build an outhouse 
facility. And, of course, a quick way to do that is with 
dynamite rather than shovels, of course.
    And so they were using some dynamite. And my dad said, 
``Well, let's just throw in an extra stick there and get this 
done fast.'' So they threw an extra stick in, and, of course, 
they didn't think properly because they had the outhouse, a 
very nicely constructed outhouse, and they had actually sawn 
from timber they had taken down themselves, and, of course, 
they blew out the outhouse.
    And I just tell that story because I think you can be 
confident we're going to take a renewed effort not to blow up 
the Park Service budget, not to destroy our National Parks, and 
we are going to do everything we can to make sure of this 
fulfillment for future generations, and we are going to be 
fiscally responsible in doing it.
    No one has brought up the fact we have a $400 billion 
deficit today. There's no money in Washington, DC. We're going 
to make sure there's money available to take care of these 
parks.
    Thank you, Mr. Chair.
    Mr. Reichert. I would just add one thing. Thank you to Mr. 
Chairman for holding this hearing and again thank you to all of 
you for being here.
    Mr. Souder. I thank all of you. I mean, it's interesting 
even in New Orleans, I think it's the John Recede Park, took a 
pretty bad beating, but yet as you look at what they were 
trying to do out there, much like in the Everglades, if you 
destroy some of the ecosystem, the floods can hit the city 
quicker. And it's going to be interesting to see even the Park 
Service pressure on trying to rehab four parks down there in 
New Orleans that they are trying to put together. And we're 
still getting the inventory.
    But ironically the Park Service and/or other Federal 
Government may have to look at the wetland system going into 
New Orleans as a buffer, and those kind of things were never 
asked of the Park Service years ago.
    Mr. Dickenson. Right.
    Mr. Souder. Thank you each for your testimony and your 
time. The subcommittee stands adjourned.
    [Whereupon, the subcommittee was adjourned.]

                                 <all>

</pre></body></html>
